<html>
<title> - WHAT'S NEXT IN THE WAR ON TERRORISM?</title>
<body><pre>[Senate Hearing 107-417]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-417
 
                  WHAT'S NEXT IN THE WAR ON TERRORISM?
=======================================================================



                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2002
                               __________

       Printed for the use of the Committee on Foreign Relations









 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate





                     U.S. GOVERNMENT PRINTING OFFICE
78-906                     WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001














                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

 









                            C O N T E N T S

                              ----------                              
                                                                   Page

Berger, Samuel R., former National Security Advisor, Washington, 
  DC.............................................................     7
    Prepared statement...........................................    11
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     4
Helms, Hon. Jesse, U.S. Senator from North Carolina, prepared 
  statement......................................................     6
Joulwan, Gen. George A., U.S. Army (Ret.), former NATO Supreme 
  Allied Commander, Arlington, VA................................    14
Kristol, Hon. William, editor, The Weekly Standard; chairman, 
  Project for the New American Century, McLean, VA...............    17
    Prepared statement...........................................    23

                                 (iii)

  









                  WHAT'S NEXT IN THE WAR ON TERRORISM?

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:38 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee), presiding.
    Present: Senators Biden, Feingold, Helms, and Allen.
    The Chairman. The hearing will come to order. Let me begin 
in a way I do not like to, by having to apologize to the 
witnesses for the late start. I have to tell you, the vote 
being called saved me from the total embarrassment of having to 
be fully responsible for it being late, since the train was 20 
minutes late. I am sure Mr. Kristol and his publication will 
start talking about how we need to fund Amtrak, I hope. This is 
really an Amtrak hearing, Bill.
    Thank you all very, very much. Once again, Mr. Chairman, we 
have a very distinguished panel here today as we continue our 
next in a series of hearings on the review of American foreign 
policy in the aftermath of the terrorist attacks of September 
11. These hearings, as you well know, are designed to explore 
the full range of potential challenges to our national security 
and to attempt to ensure that we are allocating our resources 
properly in order best to defend our Nation from threats.
    The more we move forward in these hearings from--this is 
the third in a series that will be, I hope, around a dozen--it 
comes down to what my father always said from the time I was a 
kid: ``Joe, if everything is equally important to you, nothing 
is important.'' We have to prioritize, and that is what we are 
really trying to figure out here.
    On Tuesday, the Secretary of State presented a 
comprehensive overview of the administration's budget 
priorities. Yesterday two very distinguished former Secretaries 
of Defense presented their views on issues ranging from arms 
control to the threat of the use of chemical and biological 
weapons in the hands of terrorists.
    Today we deal with the question of where the war on 
terrorism is likely to move next. For many, this is the heart 
of the national security debate. When we ask where the war will 
move, this question can be taken both literally and 
figuratively. When we talk about upcoming battles, we are 
talking not only about geography, but also about strategy and 
debates within the Congress and within the administration.
    In the realm of geography, there has been much discussion 
over which parts of the globe are most likely to harbor members 
of the al-Qaeda network and other terrorists plotting their 
next attack on Americans. I know you have all read this 
morning's paper and many of you heard the testimony yesterday 
from the head of our CIA, George Tenet, on his prediction that 
there is an attempt to reconfigure what is left of al-Qaeda and 
that we still face a serious threat from that very 
organization, let alone others.
    The question is, as I said, will our efforts take us next 
to countries like Somalia, Yemen, and Sudan, where governments 
lack either the ability or the will to crack down on terrorism? 
Or will it focus on countries like the Philippines, Indonesia, 
Malaysia, where governments may share our desire to root out 
terrorist groups and could be willing, may be willing, to 
cooperate with us if given the proper resources and diplomatic 
backing?
    Will our effort concentrate on the open societies of 
Western Europe, Canada, Australia, and elsewhere, whether NATO 
allies or other longstanding friends? Many of our allies fully 
support our goals in the war against terrorism, but have 
significant disagreement with us about how to best wage this 
new type of warfare. If you read today's major publications, 
there is an awful lot of discussion among our European allies 
about whether or not we are ``using'' the war on terrorism to, 
as one Foreign Minister of an allied nation said, settle old 
scores.
    If we want their continued and unstinting support for 
intelligence, for extraditing the suspects, and perhaps for 
military operations, the question is how do we have to treat 
their concerns? Is it necessary to treat their concerns? I 
suspect we should with all the respect and seriousness that 
friendship and simple prudence requires.
    If our war on terrorism turns eventually to rogue nations, 
such as those described by President Bush as the ``axis of 
evil,'' what will such a decision mean? What sort of military, 
diplomatic, and economic pressure will we bring to bear on 
these nations? What sort of timeframe are we envisioning? What 
actions by one or all of these nations might trigger an 
immediate response? How can we build support for action, 
whether military or non-military, among the rest of the world? 
And if we do move and succeed, as I am confident we would be if 
we did, are we ready to stay the course in those countries?
    The discussion on Iraq yesterday in two different venues--
there is no doubt in my mind of our ability to take out Saddam 
Hussein, none whatsoever. The question is, if we are reluctant 
to keep folks even in Afghanistan, what does that say for what 
will happen in Baghdad after Saddam's gone? What is our game 
plan?
    Today's issue, where next in the war on terrorism, can be 
understood in a non-geographical sense as well. When we look at 
the direction and source of future threats, we are not merely 
looking at a map. Will future terrorists likely focus on 
chemical or biological weapons and, if so, what will be their 
most likely source for acquiring such barbaric instruments of 
mass murder? What methods of delivery will they most likely 
employ? Will they seek to acquire a radiological dirty bomb or 
a full-fledged nuclear weapon? As for chemical and biological 
agents, the black market in such materials makes these threats 
too terrible for our Nation to ignore.
    Will they be more likely to turn their attention in a more 
conventional direction, perhaps by attacking our Nation's 
bridges or tunnels or sports arenas or other high visibility 
infrastructure? Let us not forget the heroic devastation of 
September 11 was wrought by technology no more sophisticated 
than knives, and not much of a knife to begin with, airline 
fuel, and fire.
    No nation can provide a perfect protection against every 
threat that could ever possibly materialize. We have to figure 
out our priorities. We cannot do everything, at least we cannot 
do it all at once. Do we put our money into airport, rail, and 
port security, border patrols, beefed-up police, fire 
departments, medical response teams? Do we invest more money 
and invest more creativity in intelligence assets and language 
training for these specialists?
    Each and every day, our electronic monitors gather a vast 
wealth of raw material. They literally suck the ether out of 
the air, and that remains, much of it remains, essentially 
useless because we lack the specialists able to interpret it or 
even able to read the language that we intercept.
    Do we invest more money in foreign aid, cultural exchanges, 
or other programs which help drain the swamp of terrorism? And 
do they in fact drain the swamp of terrorism? Do we invest in 
narcotic crop substitution, equip friendly governments to help 
to battle our common enemy, and hire more financial watchdogs 
to hunt down terrorists' finances and choke off the money that 
keeps these groups alive?
    How much of our limited resources do we devote to missile 
defense, a project outside the scope of today's hearing, but 
directly related when we consider the issue of allocation of 
time, money, assets, and intelligence, that is the raw brain 
power that this country and this government possesses? Do we 
spend $60 billion, $100 billion, $200 billion?
    Are we going to produce a boost phase, mid-phase, end phase 
system? Or do we think, as some have suggested and was 
mentioned yesterday, a pre-boost phase system, which is 
preemptively go in and take these out? It costs less, raises 
more costs in other ways maybe.
    I will say parenthetically that in my view one of the best 
investments we could make in the security of the United States 
would be to fund fully ongoing programs to corral, safeguard, 
and destroy stockpiles of chemical, biological, and nuclear 
materials in the former Soviet Union. I have indicated that I 
think, as much as I am concerned about Iraq, and I am, the real 
candy store out there is Russia. If you want to go shopping, 
that is the place to shop. Do we provide the funds necessary to 
keep scientists with dangerous technical expertise from selling 
these services to the highest bidder?
    The budget priorities put forward by the administration in 
my view are ones that we have a responsibility to debate and 
discuss because, as, general, you know from your days at the 
Pentagon, if you want to know what is important to a military 
establishment, look at their budget, look at the budget.
    I will also say that in my view one of the most important 
lessons of September 11 is the need for a global perspective. 
In the battle against terror, unilateralism is not an option. 
That is not to suggest we do not have unilateral options and we 
need not preserve them and exercise them if need be. Our 
military can take on any adversary in the world. But this 
battle on terrorism at least is not one that can be fought 
purely by the military. It relies on intelligence, police, 
diplomacy, and these rely firmly on cooperation with other 
nations.
    As Secretary Perry said yesterday, the tough call we are 
going to have to make in the next decade or so--my phrase, 
``the next decade or so,'' not his--is what are the tradeoffs 
here? Clearly, we like to act with independence. Clearly, we 
like to act without having to be bogged down with anyone else 
being any part of the decision. But what is the tradeoff? If we 
act that way, if we lose cooperation, what is the end result? 
Is the tradeoff worth it or is it not worth it?
    These are very difficult decisions that do not lend 
themselves in my view to simplistic formulas. So we may not 
know precisely where the war on terrorism will take us next, 
but I firmly believe that it is likely to require us to have 
some cooperation from our allies and friends.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Today the Committee on Foreign Relations continues a series of 
hearings to review American foreign policy in the aftermath of the 
terrorist attacks of September 11. These hearings are designed to 
explore the full range of potential challenges to our national 
security, and to insure that we are allocating our resources properly 
in order to best defend our nation from any such threats.
    On Tuesday, the Secretary of State presented a comprehensive 
overview of Administration budget priorities. Yesterday, two former 
secretaries of defense presented their views on arms control issues. 
Today we deal with the question of where the war on terrorism will be 
likely to move next. For many, this is the heart of our national 
security debate.
    When we ask ``where'' the war will move, this question can be taken 
both literally and figuratively. When we talk about upcoming battles, 
we are talking not only about geography, but also about strategy.
    In the realm of geography, there has been much discussion over 
which parts of the globe are most likely to harbor members of the al-
Qaeda network and other terrorists plotting their next attack on 
Americans. Will our effort take us next to countries like Somalia, 
Yemen and Sudan, where governments lack either the ability or the will 
to crack down on terrorism?
    Will it focus on countries like the Philippines, Indonesia, and 
Malaysia, where governments may share our desire to root out terrorist 
groups, and could be willing to cooperate with us if given the proper 
resources and diplomatic backing?
    Will our effort concentrate on the open societies of Western 
Europe, Canada, Australia, and elsewhere--whether NATO allies or other 
longstanding friends? Many of our allies fully support our goals in the 
war against terrorism, but have significant disagreements with us about 
how best to wage this new type of warfare. If we want their continued, 
unstinting support--for intelligence, for the extradition of suspects, 
and perhaps for military operations--we will have to treat their 
concerns with all the respect and seriousness that friendship and 
simple prudence require.
    And if our war on terrorism turns eventually to ``rogue nations'' 
such as those described by President Bush as the ``Axis of Evil,'' what 
will such a decision mean? What sort of military, diplomatic, and 
economic pressure will we bring to bear on these nations? What sort of 
time-frame are we envisioning? What actions by one--or all--of these 
nations might trigger an immediate response? How can we build support 
for action, whether military or non-military, among the rest of the 
world community?
    Today's issue--where next in the war on terrorism--can be 
understood in a non-geographical sense as well. When we look for the 
direction and source of future threats, we are not merely looking at a 
map.
    Will future terrorists be likely to focus on chemical or biological 
weapons? If so, what will be their most likely sources for acquiring 
such barbaric instruments of mass-murder? What methods of delivery will 
they be most likely to employ?
    Will they seek to acquire radiological ``dirty bombs,'' or even 
full-fledged nuclear weapons? As for chemical and biological agents, 
the black market in such materials makes these threats too terrible for 
our nation to ignore.
    Will they be more likely to turn their attention in a more 
conventional direction, perhaps by attacking our nation's bridges, 
tunnels, sports arenas, or other high-visibility infrastructure? Let us 
not forget that the horrific devastation of September 11 was wrought by 
technology no more sophisticated than knives, airline fuel, and fire.
    No nation can provide perfect protection against every threat that 
could ever possibly materialize. We have to figure out our priorities. 
We can't have everything, all at once: do we put our money into 
airport, port and rail security, border patrols, beefed-up police, fire 
departments, and medical response teams? Do we invest more money--and 
invest it more creatively--in intelligence assets and in language 
training for area specialists? Each and every day our electronic 
monitors gather a vast wealth of raw intelligence that remains 
essentially useless, because we lack the specialists able to interpret 
it or who might understand the language.
    Do we invest more money in foreign aid, cultural exchange, and 
other programs which help ``drain the swamp'' of terrorism? Do we 
invest in narcotics crop substitution, equip friendly governments to 
help battle our common enemy, or hire more financial watchdogs to hunt 
down terrorist finances and choke off the money that keeps these groups 
alive?
    And how much of our limited resources do we devote to missile 
defense--a project outside the scope of today's hearing, but directly 
related when we consider the issue of allocation of time, money and 
assets. Do we spend $60 billion? $100 billion? $200 billion?
    I will say parenthetically that, in my view, one of the best 
investments we could make for the security of the United States would 
be to fully fund ongoing programs to corral, safeguard, or destroy 
stockpiles of chemical, biological and nuclear materials in the former 
Soviet Union, and to provide funds necessary to keep scientists with 
dangerous technical expertise from selling their services to the 
highest bidder. The budget priorities put forward by the 
Administration, in my view, are ones that we have a responsibility to 
debate and discuss.
    I will also say that, in my view, one of the most important lessons 
of September 11 is the need for a global perspective. In the battle 
against terror, unilateralism simply is not an option. Our military can 
take on any adversary in the world--but this battle against terrorism 
is not one that can be fought by the military alone. It relies on 
intelligence, police, and diplomacy--and all of these rely firmly on 
the cooperation of many other nations.
    We may not know precisely where the war on terrorism will take us 
next. I firmly believe that it is likely to require us to ask for 
cooperation from our allies and friends.

    The Chairman. I am anxious to hear what our distinguished 
witnesses--and they are distinguished--have to say about these 
and other issues, and I will now yield to the Senator from 
North Carolina, the real chairman of the committee.
    Senator Helms. Mr. Chairman, thank you.
    I am glad to see we have a group of young people here this 
morning. Can you hear all right? Would you raise your hand if 
you cannot hear any of the witnesses, because we have a blue 
ribbon group of leaders here and I want you to hear what they 
say.
    The first is Samuel Berger. He was former National Security 
Advisor to the President for 8 year. Then Gen. George A. 
Joulwan--I got it right, did I not?
    General Joulwan. You got it right.
    Senator Helms. He is former NATO Supreme Allied Commander. 
Last and certainly not least is Bill Kristol, editor of The 
Weekly Standard and chairman of the Project for the New 
American Century, which is headquartered in McLean, Virginia.
    Now, I welcome all three of you, and I know it is an 
imposition sometimes to come up here, but it makes a lot of 
difference in terms of understanding the problems and 
questions.
    One of the things the American people learned on September 
11 is that there are implacable enemies seeking to destroy us. 
Everybody knows that. And if those enemies are not identified 
and disarmed and/or destroyed, ``they will come for us,'' to 
quote the President of the United States. President Bush 
understands that and, in his State of the Union Address, he put 
America's enemies on notice: ``We know who you are, we know 
what you are doing; stop or we will stop you.'' And he said it 
rather emphatically, to a standing ovation.
    Terrorism and despotism, weapons of mass destruction and 
the missiles to deliver, all of these threats exists today to 
our Nation, and to our allies. Previous administrations have 
erred in believing that one could confront terror and weapons 
of mass destruction [WMD] proliferation as law enforcement 
problems. Un-uh. No indeed, these are matters of vital national 
security and must be addressed with a broad, consistent policy 
that brooks no bargaining, no pinpricks, and no half-measures.
    In all likelihood, there will be no need to make war on all 
of our enemies, but we must be forthright in identifying them, 
giving them an opportunity to reform, and, if necessary, 
isolating or eliminating them. For that reason, many of us have 
declared that Saddam Hussein must go. Now, all of our half-
measures have failed and our efforts to give Saddam room to 
improve were used by him to consolidate his power and buildup 
more weapons.
    Every year a group of people, Saddam's constituency, who 
want him out of office, come to see us and tell us what is 
going on. If we bury our heads in the sand, as was done with 
the Taliban and Osama bin Laden, we are going to find ourselves 
confronting Saddam on his terms and at a time of his choosing. 
Sure, we will prevail. We are certain of that. But at what 
cost?
    One last thought, Mr. Chairman, and I am through. At the 
end of the cold war we discovered that none were more beloved 
in the Soviet Union and the Eastern Bloc than Ronald Reagan and 
Margaret Thatcher. Why were they beloved? They were respected 
and beloved because they told the world the truth about Soviet 
tyranny. I believe America will be equally beloved today if we 
speak the unvarnished truth about the terrorist totalitarian 
rulers in this world. After all, the people of Cuba, Syria, 
Iran and Iraq are not terrorists. They have no desire, let 
alone any plans, to annihilate us, with nuclear weapons or 
anything else. But no one suffers more than they do at the 
hands of the kind of leadership that they have.
    The time has obviously come, I think, for all of us to 
speak out. The President of the United States began a new day 
last week with his denunciation of what he called the ``axis of 
evil.'' The rest of us, I think, will do well to follow in his 
footsteps.
    Thank you so much, Mr. Chairman.
    [The prepared statement of Senator Helms follows:]

               Prepared Statement of Senator Jesse Helms

    Distinguished gentlemen, welcome. We are here to hear from you, and 
not to hear Senators pontificate, so I will be brief.
    One of the things the American people learned on September 11 is 
that there are implacable enemies seeking to destroy us. If those 
enemies are not identified, and disarmed or destroyed, they will come 
for us.
    President Bush understands that, and in his State of the Union, he 
put America's enemies on notice. ``We know who you are; we know what 
you are doing; stop or we will stop you,'' the President said 
emphatically.
    Terrorism and despotism, weapons of mass destruction and the 
missiles to deliver them, all these are threats today to our nation and 
to our allies. Previous administrations have made the mistake of 
believing that confronting terror and WMD proliferation could be 
treated as law enforcement problems. No indeed, these are matters of 
vital national security and must be addressed with a broad, consistent 
policy that brooks no bargaining, no pinpricks and no half measures.
    In all likelihood, there will be no need to make war on all of our 
enemies, but we must be forthright in identifying them, giving them an 
opportunity to reform, and, if necessary, isolating or eliminating 
them. For that reason, many of us have declared that Saddam Hussein 
must go.
    All of our half measures have failed and our efforts to give Saddam 
room to improve were used by him to consolidate his power and build up 
more weapons. If we bury our heads in the sand, as was done with the 
Taliban and Osama bin Laden, we will find ourselves confronting Saddam 
on his terms at a time of his choosing. Sure, we will prevail, but at 
what cost?
    One last thought:
    At the end of the Cold War, we discovered that no one was more 
beloved in the Soviet Union and East Bloc than Ronald Reagan and 
Margaret Thatcher. Why were they beloved? Because they told the world 
the truth about Soviet tyranny.
    I believe America will be equally beloved today if we speak the 
unvarnished truth about the terrorist, totalitarian rulers of this 
world. After all, the people of Cuba, Syria, Iran and Iraq are not 
terrorists; they have no desire, let alone any plans, to annihilate us 
with nuclear weapons. No one suffers more than they do at the hands of 
their disreputable leaders.
    The time has obviously come for all of us to speak out. President 
Bush began a new day last week with his denunciation of the ``axis of 
evil''. The rest of us will do well to follow in his footsteps.

    The Chairman. Thank you.
    We will hear from the witnesses, and I will introduce each 
and say a little about them in this order. I would like to hear 
from Mr. Berger first. I should say that for 8 years I had a 
chance to work with Mr. Berger. I think he is the single best 
mind that existed at the time in that administration. One of 
the things I have found about him is that this is a man who is 
not reluctant to speak his piece and to suggest the use of 
force when he thinks it is needed.
    I am happy that he is here. I look forward to his input. I 
must acknowledge in full disclosure, I consider him a friend. 
So that does not mean I will not ask him tough questions, but I 
consider him a friend and I am delighted he is here.
    Would you begin, Sandy. Then what we will do is go to 
General Joulwan. I want to say a word about him after you 
finish your testimony.

    STATEMENT OF SAMUEL R. BERGER, FORMER NATIONAL SECURITY 
                    ADVISOR, WASHINGTON, DC

    Mr. Berger. Thank you, Mr. Chairman, for those kind words.
    Senator Helms, Senator Allen, other members of the 
committee who are here in spirit----
    The Chairman. Some members will possibly make it who are 
not now present. The farm bill is on the floor and what we all 
know and all three of you know is farm policy always takes 
precedence over foreign policy when there is an election year 
and notwithstanding terror. So I am afraid there are a lot of 
our colleagues down there dealing with farm policy right now.
    Mr. Berger. I welcome your invitation to participate in 
this important and timely set of hearings and to address in 
particular the next stages of the war against terrorism. Let me 
begin briefly with what we have already accomplished with 
decisive and courageous leadership from President Bush, 
skillful diplomacy and a military that has demonstrated 
superbly the strength it has gained and the lessons it has 
learned over the last decade. The Taliban regime is gone, its 
demise unlamented by the Afghan people, its first victims. An 
interim coalition, fragile but representative, has taken over 
in Kabul. Al-Qaeda has been shaken and dispersed, for now 
disrupted as a functioning network.
    September 11 was a watershed for our country and the world. 
It breached the boundaries of the unimaginable. A horrified 
world stood with us. The response of the United States was 
fierce and focused, directed at those what perpetrated the 
crimes and those who support them. This response thwarted bin 
Laden's fundamental objective, to provoke indiscriminate 
actions by the United States that would further polarize the 
West and the Islamic world, collapsing not just the Twin 
Towers, but governments linked to us from Pakistan to Saudi 
Arabia. We were not just the object of these attacks, but also 
we were the potential instrument of the terrorist purpose, to 
advance the vision of a radical pan-Islamic region from central 
Asia to the gulf and beyond.
    Americans, led by the President, have responded with 
unified purpose. We have known that our cause is both right and 
necessary, and so has the world.
    So where do we go from here? We have an historic 
opportunity if we show as much staying power as firepower, if 
we are unrelenting but not overreaching, if we exercise not 
only the military power necessary to protect our people, but 
also the moral authority necessary to demonstrate that our 
strength serves a purpose broader than self-protection, to 
build a safer world of shared wellbeing.
    Our first task, as the President has said, is to finish the 
job of destroying al-Qaeda. That job necessarily involves 
getting bin Laden. We must not define him out of existence. We 
must dictate his destiny. After all, he is the man most 
responsible for the crime against humanity nearly 5 months ago. 
We cannot permit him to reemerge in a month or a year. We do 
not want the legend of bin Laden, a symbol of defiance. We want 
the lesson of bin Laden, a symbol of defeat.
    It may take months or years. He may be dead already. But 
the victims cannot rest in peace until that justice is done.
    We must continue to take down al-Qaeda cells and hunt down 
al-Qaeda operatives elsewhere, in Asia, Europe, Africa, North 
America, in this country and elsewhere. Disruption will be an 
ongoing enterprise, a priority that will require international 
intelligence, law enforcement, and military cooperation for the 
foreseeable future. As Director Tenet said yesterday, these 
cells of fanatics will reconstitute themselves. We must treat 
this as a chronic illness that must be aggressively managed, 
while never assuming that it has been completely cured.
    Where we can help our friends suppress terrorist threats, 
we should do so, as we are in the Philippines, Bosnia and 
elsewhere. We must be careful to distinguish that from 
suppressing their legitimate opposition. Where we see remnants 
of al-Qaeda and its allies regroup in countries with virtually 
no governments, it may be necessary to act militarily, 
balancing the genuine security gains against potential 
allegations that we are assuming the role of world policeman.
    As we move beyond al-Qaeda and its allies, we need to be 
clear about our purposes, strategies, standing, and capacities. 
In the State of the Union, the President dramatically expanded 
the battlefield. He redefined and expanded the war to embrace 
an ``axis of evil.'' Implicit in that ultimatum, I believe, is 
the conviction that the threat of American power against 
radical regimes and presumably its exercise will create a new 
dynamic that causes these regimes to abandon activities that 
threaten us. It assumes that others will follow our clearly 
defined leadership and, if not, we will act alone if necessary.
    These are profoundly important premises which promise a far 
more interventionist global American posture. They deserve 
serious and open-minded discussion. I do not believe the 
President is engaged in empty threats or rhetorical bluff.
    Each of the governments singled out by the President pose 
unmistakable dangers. Saddam was, is, and continues to be a 
menace to his people, to the region, and to us. He cannot be 
accommodated. Our goal should be regime change. The question is 
not whether, but how and when.
    Iran continues to pursue nuclear weapons and advanced 
missile systems and to support terrorist and rejectionist 
groups like Hezbollah, Hamas, and PiJ. Its involvement in arms 
shipments to the Palestinians is unacceptable.
    North Korea's regime, a relic of the cold war, is 
repressive toward it's people and promiscuous in peddling its 
missile technology.
    We ignore the risks these governments pose at our peril. 
But each of them, and their context, is very different. Merely 
labeling them as evil does not answer hard questions about the 
best way to deal with them to effect needed change.
    How do we build support in the region and among our allies 
to intensify pressure on Saddam Hussein? Can the Afghan 
template be applied in Iraq, where Saddam's power is more 
entrenched and the opposition is weaker? Are we prepared to go 
it alone militarily? Is that feasible and what would it take? 
How does our role in the deteriorating Middle East conflict 
relate to a more aggressive posture toward Saddam? Do flames in 
Baghdad inflame the Middle East or quiet it?
    Have we given up on the internal struggle in Iran, where 
majorities of over 70 percent have expressed their desire for 
change? Does branding Iran part of an evil axis strengthen 
those who want to engage the United States or those who want to 
demonize us?
    Does disengaging from negotiations with North Korea, which 
produced a missile moratorium that has held since 1998 and a 
freeze on nuclear fuel production that has been continuously 
verified by outside monitors, make it more or less likely that 
we will gain restraint? Does it make war on the Korean 
Peninsula more or less likely? Does it matter that our ally 
South Korea believes that the policy of cautious engagement 
with the North has reduced tensions on the peninsula to an all-
time low?
    Finally, do we lose the focus on our war against terrorism 
and the support of our allies for fighting it when we redefine 
the conflict as a war against rogue states? From the beginning, 
the President described the war against terrorism as a 
monumental struggle between good and evil. But as our 
definition of evil becomes more expansive, from Baghdad to 
Teheran to Pyongyang, will our support in the world for the 
fight against terrorism become more diffuse?
    I think the President is absolutely right to sound the 
alarm against the nexus between biological, chemical, and 
nuclear states and terrorism. The discussion we should have in 
a bipartisan and respectful way is not whether we deal with 
these risks, but how. It must also include reducing the threat 
of loose nukes and inadequately secured nuclear materials in 
Russia. It should include putting teeth in the Biological 
Weapons Convention and I would argue ratifying the 
Comprehensive Test Ban treaty. It must include stopping friends 
and allies from selling dangerous technologies to hostile 
governments.
    The struggle against global terrorism is not a fight we can 
win alone. We need partners, coalitions built around us, not 
against us.
    The President was also right when he said we are usually 
better off in the world when we say less and do more. A great 
power threatens only if it is prepared to act if intimidation 
fails. In an effort to impose new world order, we must be 
careful not to contribute to new world disorder.
    Let me make one final principal point about the war against 
terrorism. We have been focused since September 11, Mr. 
Chairman, on the military dimension of this struggle. It is an 
essential part now and perhaps in the future. But this is not a 
war we can fight with military power alone. Our objective must 
not be only to destroy the terrorist networks that have 
attacked and threatened us; we must do so in a way that makes 
the world more stable, not less, that isolates the extremists, 
not us.
    That means, as Secretary Powell has said, we must commit 
our resources to stabilizing and rebuilding Afghanistan, 
including the possibility of participating in an international 
security force. It means that we must make sure President 
Musharraf succeeds. He has bought the program that he must take 
on the terrorists within or lose his country. If he fails, no 
one else in the Islamic world will try again, and it would be 
more than ironic if we defeated the military extremists in 
Afghanistan only to see them prevail in Pakistan and seize 
control of nuclear weapons.
    It means supporting the administration's active role in 
diffusing the crisis between Pakistan and India, where 
confrontation can lead to miscalculation and, with nuclear 
weapons on both sides, miscalculation can lead to disaster.
    It means that we must fight the terror and seek to break 
the death grip in the Middle East. Pessimism about the Middle 
East is an honest reflection of reality, but it cannot lead us 
to fatalism, the view that we are unable to make a difference. 
The situation will only get worse without sustained engagement 
led by the United States, on Arafat to defeat the killers and 
on the Israelis to respond as he does. The alternative is a 
destructive war of attrition and a radicalization of the entire 
region.
    It means we must put as much energy into the Arab world as 
we take out of it, but of the diplomatic, political, economic, 
and intellectual variety. We must act more purposefully to 
convince our friends in the region that pluralism and reform 
are not the enemies of Islam, they are the enemies of the 
extremists.
    Finally, we must put at the heart of the U.S. agenda 
efforts to enable the poor to reap the advantages of 
globalization and opportunity. This too is part of the war 
against terrorism, for unless we do so the world will become a 
more divided and bitter place and our power, unrivaled as it 
may be, will produce as much resentment as respect.
    In short, Mr. Chairman, phase two in the war against 
terrorism, a long-term struggle as the President honestly has 
told us, must be defined not only by what we destroy, but also 
by what we build, not only by what we stand against, but what 
we stand for.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Berger follows:]

   Prepared Statement of Samuel R. Berger, Former National Security 
                                Advisor

    Mr. Chairman, Members of the Committee:
    I welcome your invitation to participate in this important and 
timely series of hearings and to address, in particular, the next 
stages in the war against terrorism.
    Let me begin with what we already have accomplished with decisive 
and courageous leadership from President Bush, skillful diplomacy and a 
military that has demonstrated superbly the strength it has gained and 
the lessons learned over the past decade. The Taliban regime is gone, 
its demise unlamented by the Afghan people, its first victims. An 
interim coalition, fragile but representative, has taken over in Kabul. 
Al Qaeda has been shaken and dispersed, for now disrupted as a 
functioning network.
    September 11th was a watershed for our country and the world. It 
breached the boundaries of the unimaginable. A horrified world stood 
with us. The response by the United States was fierce and focused--
directed at those who perpetrated the crimes and those who support 
them. This response thwarted bin Laden's fundamental objective: to 
provoke indiscriminate actions by the U.S. that would have further 
polarized the West and the Islamic world, collapsing not just the Twin 
Towers but governments linked to us from Pakistan to Saudi Arabia. We 
were not just the object of these attacks but also the potential 
instrument of the terrorists' purpose: to advance the vision of a 
radical pan-Islamic region from central Asia to the Gulf and beyond.
    Americans, led by the President, have responded with unified 
purpose. We have known that our cause is both right and necessary, and 
so has the world.
    So where do we go from here? We have an historic opportunity--if we 
show as much staying power as fire power . . . if we are unrelenting 
but not overreaching . . . if we exercise not only the military power 
necessary to protect our people but also the moral authority necessary 
to demonstrate that our strength serves a purpose broader than self-
protection--to build a safer world of shared well-being.
    Our first task, as the President has said, is to finish the job of 
destroying al Qaeda. That job necessarily involves getting bin Laden. 
We must not define him out existence; we must dictate his destiny. 
After all, he is the man most responsible for the crime against 
humanity nearly five months ago. We cannot permit him to reemerge--in a 
month, or a year. We do not want the legend of bin Laden--a symbol of 
defiance. We want the lesson of bin Laden--a symbol of defeat.
    It may take months or years. But the victims cannot rest in peace 
until that justice is done.
    And we must continue to take down al Qaeda cells, and hunt down al 
Qaeda operatives elsewhere--in Asia, Europe, Africa, here and elsewhere 
in this Hemisphere. Disruption will be an ongoing enterprise--a 
priority that will require international intelligence, law enforcement 
and military cooperation for the foreseeable future. These cells of 
fanatics will reconstitute themselves. We must treat this as a chronic 
illness that must be aggressively managed, while never assuming it has 
been completely cured.
    Where we can help our friends suppress terrorist threats, we should 
do so, as we are in the Philippines, Bosnia and elsewhere. We must be 
careful to distinguish that from suppressing their legitimate 
opposition. And where we see remnants of al Qaeda and its allies 
regroup in countries with virtually no governments, it may be necessary 
to act militarily, balancing the genuine security gains against 
potential allegations that we are assuming the role of world policeman.
    As we move beyond al Qaeda and its allies, we need to be clear 
about our purposes, strategies, standing and capacities. In the State 
of the Union, the President dramatically expanded the battlefield. He 
redefined and expanded the war to embrace an ``axis of evil.'' Implicit 
in the ultimatum, I believe, is the conviction that the threat of 
American power against radical regimes--and presumably its exercise--
will create a new dynamic that causes these regimes to abandon 
activities that threaten us. It assumes that others will follow our 
clearly defined leadership and, if not, we will act alone if necessary.
    These are profoundly important premises, which promise a far more 
interventionist global American posture. They deserve serious and open-
minded discussion. I do not believe the President is engaged in empty 
threats or rhetorical bluff.
    Each of the governments singled out by the President pose 
unmistakable dangers. Saddam Hussein was, is and continues to be a 
menace to his people, to the region and to us. He cannot be 
accommodated. Our goal should be regime change. The question is not 
whether but how and when.
    Iran continues to pursue nuclear weapons and advanced missile 
systems and to support terrorist and rejectionist groups like 
Hezballah, Hamas and PiJ. Its involvement in arms shipments to the 
Palestinians is unacceptable.
    North Korea's regime, a relic of the Cold War, is repressive toward 
its people and promiscuous in peddling its missile technology.
    We ignore the risks these governments pose at our peril. But each 
of them, and their context, is very different. Merely labeling them as 
``evil'' does not answer hard questions about the best way to deal with 
them to effect needed change.

  <bullet> How do we build support, in the region and among our allies, 
        to intensify pressure on Saddam Hussein? Can the Afghan 
        template be applied in Iraq, where Saddam's power is more 
        entrenched and the opposition is weaker? Are we prepared to go-
        it-alone militarily? Is that feasible and what would it take?

  <bullet> How does our role in the deteriorating Middle East conflict 
        relate to a more aggressive posture toward Saddam? Do flames in 
        Baghdad inflame the Middle East, or quiet it?

  <bullet> Have we given up on the internal struggle in Iran, where 
        majorities of over 70% have expressed their desire for change? 
        Does branding Iran part of an evil axis strengthen those who 
        want to engage the U.S. or those who seek to demonize us?

  <bullet> Does disengaging from negotiations with North Korea, which 
        produced a missile moratorium that has held since 1998 and a 
        freeze on nuclear fuel production that has been continuously 
        verified by outside monitors, make it more or less likely that 
        we will gain restraint? Does it make war on the Korea Peninsula 
        more or less likely? Does it matter that our ally, South Korea, 
        believes that the policy of cautious engagement with the North 
        has reduced tensions on the Peninsula to an all-time low?

  <bullet> Do we lose focus in our war against terrorism, and the 
        support of our allies for fighting it, when we redefine the 
        conflict as a war against rogue states? From the beginning, the 
        President described war against terrorism as a ``monumental 
        struggle between good and evil.'' But as our definition of evil 
        becomes more expansive--from Baghdad to Tehran to Pyongyang--
        will our support in the world for the fight against terrorism 
        become more diffuse?

    I think the President is absolutely right to sound the alarm 
against the nexus between biological, chemical and nuclear states and 
terrorism. The discussion we should have, in a bipartisan and 
respectful way, is not whether we deal with these risks, but how. It 
must also include reducing the threat of loose nukes and inadequately 
secured nuclear material in Russia. It should include putting teeth in 
the Biological Weapons Convention, and, I would argue, ratifying the 
CTBT. And it must include stopping friends and allies from selling 
dangerous technology to hostile governments. The struggle against 
global terrorism is not a fight we can win alone; we need partners--
coalitions built around us not against us.
    The President was also right when he said we are usually better off 
in the world when we say less and do more. A great power threatens only 
if it is prepared to act if intimidation fails. In an effort to impose 
new world order, we must be careful not to contribute to new world 
disorder.
    Let me make one other principal point about what is next in the war 
against terrorism. We have been focused since September 11th on the 
military dimension of this struggle. It is a necessary part, now and 
perhaps in the future. But this is not a war we can fight with military 
power alone. Our objective must be not only to destroy the terrorist 
networks that have attacked and threaten us; we must do so in a way 
that makes the world more stable, not less--that isolates the 
extremists, not us.

  <bullet> That means, as Secretary Powell has said, we must commit our 
        resources to stabilizing and rebuilding Afghanistan, including 
        the possibility of participating in an international security 
        force.

  <bullet> It means we must make sure President Musharraf succeeds. He 
        has ``bought the program''--that he must take on the terrorists 
        within, or lose his country. If he fails, no one else in the 
        Islamic world will try again. And it would be more than ironic 
        if we defeated the militant extremists in Afghanistan only to 
        see them prevail in Pakistan, and seize control of nuclear 
        weapons.

  <bullet> It means supporting the Administration's active role in 
        defusing the crisis between Pakistan and India--where 
        confrontation can easily lead to miscalculation and, with 
        nuclear weapons on both sides, miscalculation can lead to 
        disaster.

  <bullet> It means that we must fight the terror, and seek to break 
        the death grip, in the Middle East. Pessimism about the Middle 
        East is an honest reflection of reality, but it cannot lead us 
        to fatalism--the view that we are unable to make a difference. 
        The situation will only get worse without concerted and 
        sustained engagement led by the U.S.--on Arafat to defeat the 
        killers and on the Israelis to respond as he does. The 
        alternative is a destructive war of attrition and a 
        radicalization of the entire region.

  <bullet> It means that we must put as much energy into the Arab world 
        as we take out--but of the diplomatic, political, economic and 
        intellectual variety. We must act more purposefully to convince 
        our friends in the region that pluralism and reform are not the 
        enemies of Islam; they are the enemies of the extremists.

  <bullet> Finally, we must put at the heart of the U.S. agenda efforts 
        to enable the poor to reap the advantages of globalization and 
        opportunity. This too is part of the war against terrorism--for 
        unless we do so, the world will become a more divided and 
        bitter place, and our power--unrivaled as it is--will produce 
        as much resentment as respect.

    In short, Mr. Chairman, ``phase two'' in the war against 
terrorism--a long-term struggle as the President honestly has told us--
must be defined not only by what we destroy, but by what we build, not 
only by what we stand against but what we stand for.
    Thank you.

    The Chairman. Mr. Berger, I want to thank you on behalf of 
the committee for taking as seriously as you did our 
invitation. That is a first-rate statement. Whether anyone 
agrees or not--I happen to agree with it--the fact you took it 
so seriously we appreciate very much.
    Mr. Berger. Thank you, sir.
    The Chairman. General Joulwan is a man who has had 
experience in combat. He had two combat tours in Vietnam. He 
worked in the White House. He has worked in the Pentagon. He 
was SACEUR. I find it interesting and somewhat poetic to know 
that he was a second lieutenant when the Wall in Berlin was 
built and he was a lieutenant general when the Wall came down 
in Europe.
    I have said this publicly as often as I can lately, Mr. 
Chairman, because I have been incredibly impressed over the 
last 10 years. Maybe it relates to my responsibilities and 
exposure to individuals in the military, unlike I have had in 
the first 15 years of my career. I find our flag officers among 
the brightest, the most informed diplomats, diplomats, as well 
as warriors. I have been stunned by it over the last 10 to 12 
years.
    I would point out--I do not want to get him in trouble, but 
during the period of the expansion of NATO, which you and I 
strongly supported, I suspect that--and I suspect Mr. Berger, 
who oversaw that, would agree--that General Joulwan's diplomacy 
and his input and his efforts as SACEUR were incredibly 
important as well as they were in getting our allies to do what 
I am convinced they did not want to do, which was the right 
thing in the Balkans, including your recommendations, I would 
add, with regard to Kosovo.
    I have been mightily impressed, general, and we are 
delighted to have you here. Please proceed at your pace.

 STATEMENT OF GEN. GEORGE A. JOULWAN, U.S. ARMY (RET.), FORMER 
          NATO SUPREME ALLIED COMMANDER, ARLINGTON, VA

    General Joulwan. Thank you, Mr. Chairman, and thank you for 
inviting me to testify here today. At the outset, I too want to 
thank you, Mr. Chairman and Senator Helms and Senator Allen and 
this committee, for your support during my time on active duty 
and for the important role you have played in the development 
and implementation of American foreign policy.
    You have asked me to look at several questions as part of 
your effort to better understand what we are confronting in 
this war to defeat terrorism, specifically what are our next 
steps in Afghanistan, how do we drain the swamp of terrorism, 
and how do we foster better civilian and military cooperation? 
I will do so as a soldier of 40 years, the last 7 as a 
commander in chief of our forces in Latin America, and later as 
the Supreme Allied Commander of NATO.
    Let me make a few brief points and then respond to your 
questions. First, Mr. Chairman, we are at war, but it is a 
different war than those we have fought in the past. There are 
no front lines, the enemy is dispersed and operates in small 
cells, and the underpinnings of this threat are in its 
religious radicalism and its hatred of the United States and 
the civilization that embraces freedom, tolerance, and human 
dignity. It is an enemy willing to commit suicide of its young 
to achieve its aims and with little regard for human life. 
While the enemy may be small in number, it would be wrong to 
underestimate the threat or the depth of their convictions.
    Second, the al-Qaeda network has been in place for years, 
if not decades, and we as a Nation have been surprised at the 
number of countries from which al-Qaeda operates and the 
sleepers who provide assistance and comfort to terrorists in 
many democratic countries, including our own. Such is the 
pervasiveness of this threat. While it would be wrong to paint 
al-Qaeda 10 feet tall, it would be equally wrong to dismiss the 
pervasiveness of the threat. I adhere to a very basic 
principle: Never underestimate your enemy.
    Third, let me underscore what President Bush and his 
advisors have been saying. This will be a lengthy campaign, not 
of months but years. We have bought some time in the disruption 
we have caused the al-Qaeda terrorists, but do not for a minute 
believe we have eliminated nor greatly diminished the threat to 
our homeland and to our allies and friends. We have not.
    While we Americans are used to quick action and return to 
normalcy, the Congress, the media, and our elected leaders must 
prepare our country for a long struggle. During the cold war, 
we demonstrated a commitment and resolve for over 40 years. 
That commitment and resolve transcended political party and 
labels such as liberal and conservative, and we prevailed. In 
this fight we need the same resolve and commitment for however 
long it takes. And, Mr. Chairman, we will prevail.
    The fourth point: The war on terror is being conducted on 
three fronts. One front is Afghanistan and the surrounding 
region, another here in our homeland, and the third is global 
in scope. In Afghanistan we acted swiftly to punish those who 
killed so many innocent people in New York, Washington, and 
Pennsylvania. Indeed, in my opinion our military actions were 
out in front at times of the political decisions needed to 
provide clarity and direction for the campaign plan. We 
surprised al-Qaeda, bin Laden, and their supporters with the 
swiftness of our action and the resolve of the American people. 
The surprise attack on the United States was answered in weeks, 
not months or years.
    The resolve of the American people to take the fight to 
this new enemy has been resolute and unwavering. When the 
Taliban and al-Qaeda chose to stand and fight, they were 
defeated. The union of Northern Alliance fighters, the U.S. and 
British Special Forces has been extremely effective in bringing 
accurate deadly air strikes on the enemy, but the war in 
Afghanistan is not over. The leadership of al-Qaeda has still 
not been killed or captured. We have disrupted the enemy's 
activities, but not rendered him ineffective. Without constant 
pressure, the enemy can reconstitute and pose a threat to the 
new interim government and to our troops on the ground.
    Intelligence collection and sufficient U.S. ground troops 
are needed to ensure that al-Qaeda and Taliban are not just 
disrupted, but defeated. This means staying in South Asia. It 
means developing a stronger relationship with Pakistan that is 
economic and political as well as military. It means 
involvement in resolving the potentially dangerous dispute 
between India and Pakistan.
    Mr. Chairman, it was clear from the outset that the only 
way we were going to be successful in Afghanistan and beyond 
was to enlist global support. That support has been there from 
the beginning. The stand-up attitude of the British confirms 
the special nature of our relationship and NATO's invoking of 
Article 5 for the first time in its history are the two best 
examples.
    There are others as well. Australia has troops on the 
ground and Japan is supplying ships and aid for the war effort, 
which is unprecedented. In addition, Russia, despite the ups 
and downs in our relations, has been supportive. President 
Putin, to his credit, has decided to use this opportunity, I 
believe, to seek common ground with the United States and 
broaden our relationship. As you know, Mr. Chairman, I had a 
Russian three star general as my deputy for Russian forces in 
Bosnia. We do have common interests and can build a foundation 
for better relations in the future.
    Also, Uzbekistan and Tajikistan are providing bases for 
U.S. and coalition forces. Part of the reason we have had such 
immediate access to bases in both these countries is because 
Americans have been training there since 1995 as part of the 
Partnership for Peace developed between NATO and the states of 
the former Warsaw Pact and Soviet Union. Engagement works, Mr. 
Chairman, and our allies and partners are important in this 
global fight against terror.
    As I said before, we should not be lulled into thinking we 
have drained the swamp of terrorism in Afghanistan or anywhere 
else quite yet. Afghanistan is still a dangerous place and the 
two priorities in the near term to me are clear. One is a 
combat mission to disrupt and defeat al-Qaeda and the 
terrorists. The second is an international security force in 
Afghanistan to provide security for the interim government and 
the multitude of agencies committed to rebuilding Afghanistan 
after the devastating years of Taliban rule. Both efforts are 
important, both efforts need to complement each other, and both 
efforts require U.S. leadership and direction.
    I believe there are some lessons from Bosnia that we can 
apply to Afghanistan. We went into Bosnia in the winter of 1995 
in the worst terrain in Europe and in 6 months accomplished all 
military tasks, separating 200,000 armed insurgents in 30 days, 
transferring land in 45 days, and demobilizing all warring 
factions in 180 days, and NATO did so with a coalition force 
from 36 nations, including for the first time a brigade of 
Russian troops.
    Unlike UNPROFOR, the U.N. Protection Force, we had clarity 
of mission, unity of command, and clear robust rules of 
engagement. However, the civilian side was not well organized 
or as successful. Unfortunately, Mr. Chairman, 6 years later 
U.S. and NATO troops are still in Bosnia and the unemployment 
rate is higher than it was in 1995. We are better than that as 
a Nation and as an alliance.
    Clearly, the military can bring about an absence of war, 
but it is the civilian follow-on agencies that will bring true 
peace. Therefore, my fifth point is that we must have an 
effective, integrated, disciplined, multinational team with 
clear objectives and milestones as a follow-on force in 
Afghanistan. This is not nation-building, but security-
building. We did not do so 10 years ago in Afghanistan and we 
must not make that same mistake again.
    As you know, Mr. Chairman, al-Qaeda is not confined to 
Afghanistan. I uncovered an al-Qaeda cell in Bosnia in 1996. It 
has a global reach. President Bush is right, we cannot wait for 
the next attack in order to take the next step. We must 
anticipate, we must be proactive, not reactive. We must take on 
those who support terrorist organizations with a global reach.
    But while doing this, we must take into account several 
criteria: What is the best allocation of our resources? What 
will it take to succeed, and what impact will this have on the 
international support we need over the long term to defeat 
terrorism? We should not make threats we are not prepared to 
carry out and we must match requirements with resources. While 
we cannot be tied to the wishes or judgment of the 
international community, we cannot ignore the very important 
support it has to offer.
    Finally, Mr. Chairman, let me say that the most difficult 
challenge will be that of Governor Ridge and homeland security. 
My prior experience as the commander of U.S. forces in Latin 
America reinforces how vulnerable we are to asymmetrical 
threats. While missile defense is important and should be 
pursued, a more daunting challenge is to develop a long-range 
strategy for the protection of our people here at home. We are 
vulnerable.
    We need to better organize the 40 agencies involved in 
homeland defense, particularly on our borders, which are 
extremely porous. If the narcotraffickers can smuggle 200 
metric tons of a chemical called cocaine through our borders 
every year, what other chemicals can be brought into our 
country? Make no mistake about it, Mr. Chairman. There is a 
direct link between the narcotraffickers and al-Qaeda, not just 
in Afghanistan but also in South America.
    I would also urge that the U.S. military play a key role in 
homeland defense and I support the idea of a homeland defense 
commander in chief or CINC. Intelligence collection and sharing 
is the key to success. We need to ensure there is effective 
coordination between our military, intelligence, law 
enforcement, customs, and immigration agencies. The military 
can help in that effort.
    In my view it is very important: Law enforcement is in the 
lead, the military is in support. The military should serve as 
the operations coordinator, not as the operational commander 
for homeland defense.
    Mr. Chairman, these are the points I wanted to make. I am 
prepared to elaborate on those in the question period. In 
conclusion, let me say the terrorists who carried out the 
attacks of 11 September greatly miscalculated the resolve and 
resourcefulness of the American people. I can attest to the 
quality of our troops and their ability to carry out any 
mission assigned and I can assure you that those who died on 11 
September did not die in vain. But I truly believe it is a time 
for hope, not despair, optimism, not pessimism; and with the 
help of this committee and the resolve of the American people, 
we will prevail. Mr. Chairman, failure is not an option.
    Thank you again for inviting me here today.
    The Chairman. Thank you very much, a very powerful 
statement.
    Our next witness is a man for whom I have great respect. He 
is a serious intellect and he has persuasive advocacy that 
sometimes I wish was not so persuasive. I liked him better in 
1976 when he was a Democrat. I still like him personally, but I 
have said--and I will probably get in trouble with my 
colleagues for saying this--almost all the intellectual ferment 
in the political spectrum in the last 20 years has been on the 
right as opposed to the left.
    But I am happy that he is here. I know he takes--anyone who 
knows and takes American politics seriously knows of Bill 
Kristol, and we are delighted to have you here, Bill, and the 
floor is yours.

STATEMENT OF HON. WILLIAM KRISTOL, EDITOR, THE WEEKLY STANDARD, 
 AND CHAIRMAN, PROJECT FOR THE NEW AMERICAN CENTURY, McLEAN, VA

    Mr. Kristol. Well, thank you, Mr. Chairman, Senator Helms, 
Senator Allen. You have my prepared statement, so let me 
summarize it and elaborate on one or two points.
    The Chairman. Take your time. Do not short-circuit anything 
in the interest of time here. We are anxious to hear what you 
have to say.
    Mr. Kristol. Thank you.
    The question you posed to me was what is next in the war on 
terrorism. Obviously, what is next in the short term is 
finishing the war in Afghanistan, engaging in nation-building 
in Afghanistan as we are doing, appropriately I think, trying 
to secure Pakistan, and then moving on to do, as we are now 
already doing in the Philippines, to roll up the al-Qaeda 
network around the world.
    I think this phase one of the war, though it is a difficult 
phase to execute, requiring adept use of intelligence 
resources, diplomacy, military assets, is not particularly 
controversial in terms of U.S. goals. I think there is huge 
bipartisan and popular support for that, and I will not dwell 
on it. I think it looks unlikely that it will require major 
military assets, at least major commitment of troops, though 
obviously there will be Special Forces and others and trainers 
and others supporting friendly governments and using some of 
our own forces as need be. But it seems to me this phase one of 
the war, which will now expand, obviously, into the Philippines 
and presumably into other countries as well, perhaps Somalia, 
is--we are in that phase. As I say, I do not think there is any 
great--there will be controversy, I am sure, about tactics and 
details, but I do not think there is any controversy that we 
need to roll up the al-Qaeda network and convince states that 
have provided safe havens either willingly or sort of 
inadvertently to aspects of that network and allies of that 
network that they should stop doing so.
    So the real question I think is what is next in the sense 
of what is next in phase two of the war. I think what is next 
is Iraq. I am not simply saying that because I think that 
should be phase two, but I think it will be. I think that is 
the implication of the President's State of the Union speech 
last week and really the implication of the logic of the war as 
the President understands this war.
    It seems to me that the President sees the threat of the 
nexus of terrorism, weapons of mass destruction, and hostile 
dictatorships, those three things coming together--terrorism, 
weapons of mass destruction, and hostile anti-American 
dictatorships--differently from the way our European allies see 
that threat. I was just at the Werkunde conference in Munich 
this weekend with several of your colleagues, Mr. Chairman, and 
I think we were all struck by how differently the Europeans see 
the situation we are in.
    I think this President sees the threat differently from the 
way his predecessor or even his predecessor's predecessor, his 
father, might have seen it. This President understands the 
challenge of September 11 to require, I think, that he build a 
new world or a new world order, to use a phrase that was 
perhaps unjustly mocked when it was used in the first Bush 
administration.
    This President, it seems to me, does not simply aim to 
restore the status quo ante. He does not think, well, let us 
mop up the al-Qaeda network, punish the people who inflicted 
this terrible damage on us, try to prevent them from inflicting 
further damage, but then the world of September 10 is basically 
what we go back to.
    What struck me most about being in Europe is that that is, 
I think, the mainstream European view of where we are: We were 
attacked, we are entitled to respond, we should obviously do 
our best to rip up the terrorists, but basically the world has 
not changed and basically we are going to go back to the way 
things were on September 10 and the way things were in 1999 and 
2000 and 2001 and the same policies more or less would and 
should stay in place vis-a-vis Iraq and Iran and North Korea 
and other parts of the world.
    I think the meaning of the President's State of the Union 
speech last week was that he does not agree with that 
assessment of where we are and where we should be, where we 
should go. His analysis of the threat posed by the nexus of 
terrorism, weapons of mass destruction, and hostile 
dictatorships post-September 11 leads him to a different place.
    This is a legitimate intellectual debate and political 
debate, and I very much agree with Sandy Berger that it is an 
important debate for all of us to have in a serious and 
bipartisan way. It is good, I think that your committee, Mr. 
Chairman, is having these hearings for that reason. It is not 
necessarily unreasonable to say that we cannot really reshape 
the world order, we simply have to manage these threats that 
exist, that after all the nineties was not a terrible decade, 
getting back to that status quo, certainly there would be worse 
things than that, that we are not going to be able to change 
the Middle East, we are not going to be able to change 
fundamentally the character of the regimes that exist even in 
Southeast Asia, that all we can do is keep Saddam in his box, 
hope for hopeful developments in Iran, contain North Korea and 
engage in arms control efforts, and try to find further agreed 
frameworks, and that this is basically where we will end up 6 
months or a year or 2 years from now when we basically have 
taken care of this particular problem, the al-Qaeda terrorist 
network.
    Now, as I say, I do not believe the President has this view 
that this is where we should go, that we can really afford to 
take such a limited view of our war, of our war aims. It seems 
to me that since September 11 the President has been 
increasingly clear and detailed in laying out what he views as 
a necessary and fundamental shift in policy and strategy. In 
the State of the Union he really articulated this pretty 
clearly.
    The war, he said, has two great objectives, I think a 
striking statement. The first objective obviously is defeating 
terrorism and in particular the al-Qaeda network. The second 
objective, he said--and I do think this was the most 
significant declaration by an American President perhaps in 2 
decades--was that, as he said, ``The United States of America 
will not permit the world's most dangerous regimes to threaten 
us with the world's most destructive weapons.''
    That seems to me to imply an unequivocal rejection of the 
international status quo, or at least where that status quo 
uninterrupted by dramatic American efforts, is going, because 
the fact is several of the world's most dangerous regimes are 
developing the world's most destructive weapons and are 
perfectly happy to threaten us with those weapons, certainly 
our friends and our allies, and absent decisive intervention by 
the United States there is no reason to think that they will 
voluntarily cease that sort of development.
    President Bush singled out, obviously, three regimes--North 
Korea, Iran, and Iraq--as an ``axis of evil that poses a grave 
and growing danger''--again a startling statement. One could 
have argued a year or two ago, one could argue today, that the 
dangers posed by those regimes, while serious, are not growing. 
But the President believes the danger is growing. The President 
believes that the peril draws closer and closer. The President 
believes that time is not on our side.
    Now, those are all legitimate statements to debate, but 
they need to be debated. He has articulated his view. If you 
believe that the danger is growing, if you believe that time is 
not on our side, then I think one is led to the conclusion that 
the President has come to, that we need to be willing to act, 
if necessary preemptively and unilaterally, and that this is a 
matter of American self-defense, not merely of American self-
defense which we think will also produce a safer and more just 
world, but it is first and foremost a matter of American self-
defense, and we cannot rule out preemption, we cannot rule out 
unilateral action, if that is necessary.
    The Bush doctrine seeks to eliminate dictatorial regimes 
developing these weapons of mass destruction, especially such 
regimes that have a link to terror, and they all happen to do 
so. So there is an almost perfect correlation between terror-
sponsoring regimes and regimes developing weapons of mass 
destruction. The President makes clear that in fact rogue 
regimes developing weapons of mass destruction in and of 
themselves is a sufficient threat to warrant U.S. action, 
whether diplomatic, political, or ultimately military.
    The President does also lay out a positive vision based on 
true and unchanging American principles which we will advance 
in the world. One of the more startling sentences in the 
speech, which I think received insufficient attention, the 
President said: ``America will take the side of brave men and 
women who advocate these values around the world, the values of 
liberty and justice, including the Islamic world,'' which I 
think is a commendable statement by the President.
    For too long, this country and our allies--this has been a 
bipartisan problem--have assumed that certain parts of the 
world somehow are not interested in freedom or democracy or are 
not ready for freedom or democracy or do not deserve perhaps 
freedom and democracy. It seems to me the President overturned 
an awful lot of American policy when he said that we will be 
advancing these principles around the world, including in the 
Islamic world.
    The President said this was the only way to build a just 
and peaceful world beyond the war on terror. This is, I think, 
a strategic imperative, therefore, as well as a morally 
desirable situation.
    These words I do think augur a fundamental departure from 
the U.S. policies of the past decade, both from a certain kind 
of pseudo-sophisticated realism of the first Bush 
administration and from a somewhat evasive multilateralism of 
the Clinton years. The Bush doctrine I think is a shift, it is 
a shift in U.S. foreign policy. It is a shift prompted by 
September 11, but it is a shift that goes beyond the direct 
response to September 11. As I say, it is therefore very 
legitimate and important, I think, to debate it openly and 
seriously.
    What was distressing, frankly, at the Werkunde, the annual 
security conference in Munich, that there did not seem to be 
much interest in debating this with Deputy Defense Secretary 
Wolfowitz or Senator McCain or Senator Lieberman or the other 
members of the U.S. delegation. There was more interest on the 
part of the Europeans in simply deriding it as if the President 
was simply throwing around slogans or inventing enemies for us 
to oppose.
    But in fact he seems to me to have thought through the kind 
of world he thinks we need to try to build over the next 5 or 
10 years or more. As I say, it is a legitimate topic for 
debate, but it certainly is not fair to say, I do not think, 
that he and his administration are simply trying to settle old 
scores, or using the war on terror as an excuse to buildup U.S. 
power and marginalize the allies, or the kinds of things that 
were said, unfortunately, at this particular conference in 
Munich.
    In this broader war on the nexus of terrorism, weapons of 
mass destruction, and hostile dictatorial regimes, there is no 
question that the Middle East is the central front in the war. 
It is now, I think, the foremost problem area for U.S. foreign 
policy, which incidentally is something new, I think, in the 
last half century. The Middle East has always been, I think, a 
difficult part of the world for us, and for the people there 
unfortunately. It has not been really the heart of our 
strategic concerns.
    Certainly Europe was, Asia was during the wars in Korea and 
Vietnam. But now the Middle East is the region of the world 
that poses the greatest threat to the United States and 
certainly to our friends and our allies. It is the most 
unstable part of the world, the part of the world that 
unfortunately has been least amenable to movement toward 
freedom and democracy. It is today's challenge.
    And at the heart of that challenge are the two regimes in 
Iraq and Iran. North Korea plays a role clearly in 
disseminating weapons of mass destruction or at least the means 
to deliver them and in that respect is, I think, an appropriate 
third, junior member of the axis. It also creates problems, 
obviously, in Asia that are worth thinking about seriously in 
their own right. But the Middle East is the center of the issue 
and Iraq and Iran are key to addressing the problem in the 
Middle East. This is not to say that other nations do not raise 
very serious issues as well, both issues of terrorism and 
issues of whether the regimes there are over the long term 
stable and friendly to U.S. interests. But Iraq and Iran I 
think are key.
    As my friend Charles Krauthammer wrote in the Washington 
Post last week: The good news about Iran is that you clearly do 
have opposition to the regime. There is something of ``a 
revolution from below'' going on there. The question for us is 
how we can accelerate that revolution. One answer is ``by the 
power of example and overthrowing neighboring radical regimes'' 
would, I think, show the people of Iran, it would inspire the 
people of Iran, ``show the fragility of dictatorship,'' show 
that dictatorship is not the inevitable way in the Middle East 
or in the Arab world. It would ``challenge the mullahs' mandate 
from heaven and encourage disaffected Iranians to rise.'' As 
Krauthammer points out: ``First Afghanistan to the East, next 
Iraq to the West, and then Iran.'' I think that is a reasonable 
strategic template, stipulating always the uncertainties of war 
and that one has to be ready for anything in this broad war on 
terrorism and weapons of mass destruction.
    I will not elaborate the problems we have with Iraq. Sandy 
Berger certainly referred to them and there seems to be a 
bipartisan consensus that regime change is desirable with 
respect to Iraq. The question is how to do it. Obviously, there 
are risks in trying and now moving to do it through military 
action. There are risks in not moving to do it through military 
action.
    We need to have a serious debate about that. I am pretty 
convinced that military action is now both necessary and poses 
less in the way of risks than sitting by and hoping for a coup 
or hoping that somehow U.N. inspectors could not just get back 
in, but magically actually have the right to inspect in such a 
way that we could have confidence that Saddam was not 
developing weapons of mass destruction.
    I think the President has decided, though, that a simple 
policy of containing and deterring Saddam, of keeping him 
allegedly in the box he has been in or supposedly been in for 
the last decade is no longer acceptable.
    The risks of moving against Iraq are considerable, both the 
direct military risks obviously, and no serious and responsible 
Commander in Chief will do this without taking seriously those 
risks. But there are also, of course, political risks--the 
stability of the region, will Iraq stay together as a nation, 
Saudi Arabian oil, Turkey. These are all familiar issues. I 
tend to think they are more manageable than some other people 
do, but that is something we can debate and discuss.
    I think they are certainly more manageable if a military 
action against Iraq is combined with and followed on with a 
serious commitment to, let us call it, nation-building in Iraq, 
which I think is absolutely necessary. We would need to leave 
troops there for a while. We would need to buildup a decent 
civil government there. We could help hold the country 
together, reassure neighbors. Obviously, the military effort 
would have to go hand in hand with a serious political, 
diplomatic, economic effort, and I believe this administration 
would do that once we commit to the military effort.
    The one point I would make is that I think in all the 
discussion of risks we have lost sight of some of the rewards 
of a reasonably friendly, reasonably pro-Western government in 
Iraq. It would really transform the Middle East. A friendly, 
free, and oil-producing Iraq would leave Iran isolated. I think 
Syria would be cowed. The Palestinians would, I think, be more 
willing to negotiate seriously with Israel after this evidence 
of American willingness to exert influence in the region. Saudi 
Arabia would have much less leverage, if only because of Iraqi 
oil production coming on line, with us and with Europe.
    Removing Saddam Hussein and his henchmen from power would 
be a genuine opportunity, I think, to transform the political 
landscape of the Middle East. The rewards would be very great, 
and I would also say the risks of failing to do this I think 
are very great.
    We are now at a crossroads. Before September 11, one could 
have argued--I did not personally agree with this argument, but 
one could have responsibly argued--that we can in effect kick 
the can down the road, put off a decision, see what happens. 
The threat did not seem imminent. I think after September 11, 
after the attack on us, after the President has identified this 
nexus of terrorism and weapons of mass destruction as 
unacceptable to us, to not go ahead and achieve regime change 
in Iraq and after that put pressure on Iran for serious regime 
change could really be disastrous.
    The degree of the loss of American credibility in the 
region and the world, the degree to which it will seem that we 
are willing to go change regimes when it is the Taliban and 
they do not have anything in the way of an air force, let alone 
weapons of mass destruction, but a serious larger nation that 
has the potential to use weapons of mass destruction, that they 
somehow are immune from our efforts, sending that message 
around the world is obviously, I think, terrifying really in 
terms of the implications others will draw, in terms of the 
implications allies of ours will draw, in terms of the 
potential for arms races and instability and a loss of 
confidence in America and in American credibility. That 
confidence is, as we all know, I think, the bulwark of a 
stability and a reasonable order in so many regions of the 
world.
    So to leave Saddam there and to fail in a sense to achieve 
the regime change that I think many people in both parties 
think is so important there would have real consequences. Our 
allies in the region who have stood with us--Israel, Turkey, 
Pakistan now, the new Government in Afghanistan--would feel, I 
think, a very lonely chill. Our allies in Europe, who might 
enjoy for a month or two the fact that the United States 
superpower had to retreat, would soon begin to worry about 
their own prospects in a world in which terrorists and 
terrorist states have acquired weapons of mass destruction, and 
I think around the world we would see friends appeasing 
adversaries. We would see dictators deciding that the way to be 
secure against American attack is to acquire weapons of mass 
destruction.
    We would see neighboring nations deciding that the way they 
could be secure is if they in turn acquire weapons of mass 
destruction. This could happen not only in the Middle East. It 
could easily happen, of course, in Asia, and you really do have 
I think 5 or 10 years from now an extremely dangerous world.
    So, we are at a crossroads. Either we secure the safer and 
more stable and more just world that President Bush hopes to 
secure or we are on a road toward a more dangerous and scary 
world. We cannot really go back to the situation of September 
10. I do not think we can find a stable balance of power with 
the likes of Iraq, Iran, and North Korea. We cannot afford any 
more, as the President said, ``to wait on events while dangers 
gather.''
    Obviously, there are risks involved in carrying out the 
President's strategic vision. But I very much believe that the 
risks of not moving ahead to phase two and, if necessary, phase 
three of this war on terrorism and weapons of mass destruction, 
are greater.
    [The prepared statement of Mr. Kristol follows:]

  Prepared Statement of William Kristol, Editor, The Weekly Standard; 
             Chairman, Project for the New American Century

    Thank you, Chairman Biden, Senator Helms, and members of the 
committee, for inviting me to testify before you today. You have asked 
me to address the question, ``What's next in the war on terrorism?''
    The short answer is that Iraq is next. I am not simply saying that 
Iraq should be next--although I think it should be. I am rather drawing 
a straightforward conclusion from President Bush's State of the Union 
speech, and from the logic of the war itself. The president sees this 
war differently from our European allies and differently, I think, from 
the way his predecessor or even his father might have seen it. The 
president has chosen to build a new world, not to rebuild the old one 
that existed before September 11, 2001. And after uprooting al Qaeda 
from Afghanistan, removing Saddam Hussein from power is the key step to 
building a freer, safer, more peaceful future.
    To explain my answer, let me address the basic questions about the 
nature of the war. Have the events of September 11 fundamentally 
changed the world? Is our aim to restore the status quo through limited 
actions or is it a broader attempt to reshape the Middle East and the 
other breeding grounds of terror? And how and when should we deal with 
our enemies who possess or will soon possess weapons of mass 
destruction?
    Reviving the status quo would mean that we would be satisfied at 
having deposed the Taliban, and at having dealt with Osama bin Laden--
presuming we eventually find him--and having crippled his al Qaeda 
network. We would not overly concern ourselves with who's in power in 
Afghanistan, or Pakistan, or in Central and South Asia. We would 
continue to try to keep Saddam Hussein ``in his box'' and similarly to 
contain Iran. We would return to the old Israeli-Palestinian ``peace 
process.'' We would regard North Korea not as a Stalinist state 
organized for war but as an arms control problem amenable to an 
``agreed framework.''
    This has been the ``post-Cold War status quo.'' It has been a 
period of unprecedented great-power peace. The great international 
questions of the 19th and 20th centuries, of Napoleonic France, 
imperial Britain and Japan, the Kaiser and Hitler's Germany, of Tsarist 
Russia and the Soviet Union, have all been largely settled. Indeed, the 
only real unresolved great-power issue is that of China.
    Yet this has also been a violent time, especially in the region 
from the Balkans through the Middle East to Southwest and Central Asia. 
Even before the final collapse of the Soviet Union, Saddam Hussein 
invaded Kuwait. Though his army was defeated and driven back to 
Baghdad, the failure to remove the Iraqi tyrant left a problematic 
legacy.
    Since then, the pace of major terrorist attacks--now directly aimed 
at America--has increased, as Norman Podhoretz has chronicled in the 
most recent issue of ``Commentary'' magazine. The initial attempt to 
bring down the World Trade Center was in February 1993; two months 
later, Saddam tried to assassinate President Bush when he visited 
Kuwait. In June 1996, nineteen U.S. airmen were killed and 240 wounded 
in the Khobar Towers bombing in Saudi Arabia. On August 7, 1998, the 
U.S. embassies in Kenya and Tanzania were simultaneously attacked, 
killing 12 Americans and more than 200 Africans. On October 12, 2000, 
the USS Cole was struck while docked for refueling in Yemen, killing 17 
sailors and wounding 39. And during the past decade, there have been 
dozens, if not hundreds, of smaller attacks--as well as untold numbers 
of foiled, failed or postponed assaults.
    Despite these escalating costs, American policy has implicitly 
considered the costs of significant U.S. action against terrorists as 
higher still. As Podhoretz points out, this is a tradition that began 
during the Cold War. But it has persisted through the Soviet Union's 
final days and through the Clinton Administration. Even as terrorists 
and rogue regimes lost their superpower sponsor, they learned there 
would be few consequences from attacking America. President Clinton's 
policy was, as his first CIA director James Woolsey has said, ``Do 
something to show you're concerned. Launch a few missiles into the 
desert, bop them on the head, arrest a few people. But just keep 
kicking the ball down the field.'' Maintain the status quo.
    Is that the goal of this war?
    No. Since September 11, President Bush has been clear--and 
increasingly detailed and articulate--that there has been a fundamental 
shift in U.S. policy and strategy. On the evening of the attacks, he 
vowed to bring to justice ``those who are behind these evil acts.'' Yet 
by September 20, when he addressed a joint session of Congress, he had 
determined that we were at war not only with a group of terrorists 
directly responsible for the attacks but with ``every terrorist group 
of global reach'' and with the ``nations that provide safe haven to 
terrorism,'' as well.
    Over the past few months, the president's views of ``our mission 
and our moment'' have progressed further still. On November 6, he 
assured the Warsaw Conference on Combating Terrorism that the United 
States would wage war on terror ``until we're rid of it.'' He also saw 
the potential threat of terrorists armed with chemical, biological, 
radiological or even nuclear weapons: ``We will not wait for the 
authors of mass murder to gain the weapons of mass destruction.'' And 
shortly afterward, the president shifted his emphasis from terrorist 
groups to terror-loving states: ``If you develop weapons of mass 
destruction [with which] you want to terrorize the world, you'll be 
held accountable.''
    The State of the Union address marked the maturation of the Bush 
Doctrine. This war, according to the president, has ``two great 
objectives.'' The first is defeating terrorism. The second objective, 
marking the most significant declaration by an American president in 
almost 20 years, is an unequivocal rejection of the international 
status quo. ``The United States of America,'' said President Bush, 
``will not permit the world's most dangerous regimes to threaten us 
with the world's most destructive weapons.''
    And President Bush singled out three regimes, North Korea, Iran and 
Iraq, as enemies; they constitute an ``axis of evil'' that poses ``a 
grave and growing danger.'' Nor will he ``stand by, as peril draws 
closer and closer.'' Time, he said, ``is not on our side.'' The 
president is thus willing to act preemptively and, if need be, 
unilaterally. This is a matter of American self-defense.
    The Bush Doctrine seeks to eliminate these weapons and the 
dictatorial regimes that would use them. The president also seeks to 
challenge tyranny in general. ``No nation is exempt,'' the president 
said, from the ``true and unchanging'' American principles of liberty 
and justice. Moreover, our role with respect to those principles will 
not be passive. According to the president, ``America will take the 
side of brave men and women who advocate these values around the world, 
including the Islamic world,'' and will do so because it is the only 
lasting way to build ``a just and peaceful world beyond the war on 
terror.'' This is now a strategic imperative as much as a moral one.
    The president's words augur a fundamental departure from the U.S. 
policies of the past decade, from the pseudo-sophisticated ``realism'' 
of the first Bush Administration or the evasive ``multilateralism'' of 
the Clinton years. The Bush Doctrine rests on a revived commitment to 
the principles of liberal democracy and the restoration of American 
military power.
    If the president has defined a new goal--or reminded us of what 
Americans have always regarded as our true purpose in the world--how do 
we get there? The president and his lieutenants have suggested answers 
to what the next steps should be.
    Since September 11, we have all understood that this will be a 
large and long war. Already it is being waged on a variety of fronts. 
The campaign in Afghanistan is far from complete. The Taliban has been 
routed, al Qaeda's safe haven destroyed. But while bin Laden is on the 
run, he is still on the loose. The initial battles have been 
successful, but true victory in Afghanistan will be measured in the 
long-term effort to create a viable and stable state that protects 
individual liberties and promotes justice. Nor can victory in 
Afghanistan be ensured without securing Pakistan.
    The campaign against al Qaeda now is taking American soldiers into 
Southeast Asia. More than 600 troops have been deployed to the 
Philippines to help the government of Gloria Macapagal Arroyo in its 
war against the Abu Sayyaf group of Muslim extremists. Singapore and 
Malaysia both have arrested terrorists with al Qaeda connections and 
the Bush Administration is stepping up pressure on the Indonesian 
government to do the same. The trail is also likely to lead into 
Somalia and elsewhere in Africa.
    The presence of North Korea in President Bush's ``axis of evil'' 
underscores his larger view of this war. The administration previously 
has taken somewhat contradictory stands on North Korea, first 
suggesting it would overturn the Clinton Administration's policy and 
then to maintain it. North Korea may be impoverished and isolated, but 
it is extremely dangerous. American policy must be to change the North 
Korean regime, not simply to contain it and coexist with it.
    The president also makes it clear that he regards the Middle East 
as occupying the central front in this war, and that the problem is 
political, not religious. What links Osama bin Laden, Saddam Hussein, 
and the mullahs in Tehran is a common hatred of America and a desire to 
drive America out of the region. President Bush wishes to promote the 
principles of liberty and justice especially in the Islamic world.
    The principal obstacles to that goal are the regimes in Iran and 
Iraq. Ever since the revolt against the shah, experts have been arguing 
that eventually shared interests would create a rapprochement between 
Washington and Tehran. ``Openings'' to Iran are like the first blooms 
of spring. But they are just as ephemeral. Iran's offer to rescue 
American aviators hit in Afghanistan has been more than offset by the 
discovery of its arms shipments to the Palestinian Authority. The 
character of this Iranian regime is obvious, and implacable.
    But, as Charles Krauthammer wrote in the ``Washington Post'' last 
Friday, the good news is that Iran ``is in the grips of a revolution 
from below. We can best accelerate that revolution by the power of 
example and success. Overthrowing neighboring radical regimes shows the 
fragility of dictatorship, challenges the mullahs' mandate from heaven 
and thus encourages disaffected Iranians to the rise. First, 
Afghanistan to the east. Next, Iraq to the west.''
    This summarizes the strategic implication of President Bush's war 
aims. We may never definitely know, for example, whether Saddam had a 
hand in the events of September 11; the relationship between Mohamed 
Atta and Iraqi intelligence may be lost in the mists of Prague. But 
Iraqi involvement would come as no surprise. After all, Saddam Hussein 
has remained at war with the United States since 1991. Every day, his 
air defenses target U.S. and British aircraft enforcing the no-fly 
zones over northern and southern Iraq. He flouts the UN resolutions 
agreed to following the Gulf War. And we know that Iraqi-sponsored 
terrorists have tried to kill an American president and Saddam's agents 
were likely involved in the effort to bring down the World Trade Center 
in 1993.
    And Saddam's efforts to acquire weapons of mass destruction have 
ruled out a return to the status quo strategy of containment. President 
Bush has asked himself how this man will behave once he acquires these 
weapons. The delicate game of nuclear deterrence, played with Saddam 
Hussein, is an unacceptable risk.
    A military campaign against Iraq is also something we know how to 
do. Other than the Euphrates River and Saddam's palace guard, nothing 
stood between the U.S. VII Corps and Baghdad in March 1991; the Army 
even developed a plan for encircling and reducing the city in one move. 
Despite the weakness of the sanctions regime over the past decade, and 
Saddam's care and feeding of his army at the expense of the Iraqi 
people, the Republican Guard is probably less formidable now than it 
was then.
    Moreover, as operations in Afghanistan show, the precision-strike 
capabilities of U.S. forces have improved. While the Iraq campaign 
would be far larger and would demand the immediate and rapid commitment 
of substantial American ground troops--and though we should not 
underestimate the lengths to which Saddam will go once he understands 
that the goal is to remove him from power or kill him--the military 
outcome is nearly certain.
    The larger question with respect to Iraq, as with Afghanistan, is 
what happens after the combat is concluded. The Iraqi opposition lacks 
the military strength of the Afghan Northern Alliance; however, it 
claims a political legitimacy that might even be greater. And, as in 
Kabul but also as in the Kurdish and Shi'ite regions of Iraq in 1991, 
American and alliance forces will be welcomed in Baghdad as liberators. 
Indeed, reconstructing Iraq may prove to be a less difficult task than 
the challenge of building a viable state in Afghanistan.
    The political, strategic and moral rewards would also be even 
greater. A friendly, free, and oil-producing Iraq would leave Iran 
isolated and Syria cowed; the Palestinians more willing to negotiate 
seriously with Israel; and Saudi Arabia with less leverage over 
policymakers here and in Europe. Removing Saddam Hussein and his 
henchmen from power presents a genuine opportunity--one President Bush 
sees clearly--to transform the political landscape of the Middle East.
    Conversely, the failure to seize this opportunity, to rise to the 
larger mission in this war, would constitute a major defeat. The 
president understands ``we can't stop short.'' But imagine if we did: 
Saddam and the Iranian mullahs would be free to continue their struggle 
for dominance in the Persian Gulf and to acquire world-threatening 
weaponry. Our allies in the region who have truly stood with us--like 
Israel, Turkey and now Pakistan and Hamid Karzai's nascent government 
in Afghanistan--would feel a lonely chill. And our allies in Europe, 
who may enjoy a moment's smugness at the defeat of the U.S. 
``hyperpower,'' would soon begin to worry about their own prospects in 
a world in which terrorists and terrorist states have acquired weapons 
of mass destruction. Very shortly, for lack of confidence in America's 
willingness to preserve and shape a global order, our friends would 
start appeasing our adversaries, and our adversaries' ambitions would 
grow even greater. Whether we want it or not, we are at a crossroads. 
We can either take up the task the president has laid out before us, or 
we can allow the development of a world that will soon grow far more 
unstable and dangerous.
    In short, even if we wished to, it is now impossible to recover the 
world of September 10, or to find a stable balance of power with the 
likes of Iraq, Iran and North Korea. Nor can we afford, as the 
president said, to ``wait on events, while dangers gather.'' And while 
there are risks involved in carrying out the president's strategic 
vision, the risks in not doing so are all the greater.

    The Chairman. Thank you very much.
    Senator Helms. Mr. Chairman, you and I have been around 
this place exactly the same length of time. He was sworn in 
maybe 2 minutes before I was in January 1973. I have heard a 
lot of good panels, and some others, but I have to say to you 
three gentlemen that I have never been more impressed with 
three individuals who testified before this committee.
    I was speaking to the chairman, and indicated that I think 
we ought to give our colleagues an opportunity to have the text 
of what you have said printed in a little booklet. We would 
make it available to Members upon request so that they can mail 
it as they wish to constituents who may desire to read what you 
have said.
    The Chairman. I would concur in that and we will do that. I 
do think they are the three best statements I have heard, the 
most thoughtful. I would suggest--we can work this out, Mr. 
Chairman, but what I would like to do is bind them up in a 
small book \1\ with a short preface as to the context and make 
sure all 100 colleagues have it.
---------------------------------------------------------------------------
    \1\ The book is a Committee Print entitled, ``What's Next in the 
War on Terrorism?'' S. Prt. 107-59, February 14, 2002.
---------------------------------------------------------------------------
    Senator Helms. Exactly.
    The Chairman. The reason why I think that is not just that 
they were good, but you are the first group of people with 
differing views who have agreed on at least two overriding 
principles. One is that debate is needed. On the Democratic 
side of the agenda, there is half my party afraid to say 
anything, to debate anything, for fear of being accused by the 
half of the Republican Party saying you are not supporting my, 
our President, who is popular now. My Democratic friends are 
going to be mad at my saying that, but it is true. It is the 
truth.
    The second half of it is that there are those in the 
Republican side of the equation who suggest that to debate is 
to be disloyal right now. You all three have indicated that 
this warrants a debate.
    The second thing, overarching principle you all agree on, 
is that this is seriously a pivotal moment in American history, 
in American foreign policy. This is a big deal. This is not any 
small--we are not talking tactic here. We are talking a debate 
about a fundamental shift in American policy that may be able 
to be arrived at in a bipartisan way, because the world has 
changed. We have all said it has changed.
    Toward that end, let me--and I say 10 minute rounds, 
Bertie, if we could, since we have four of us here, and 
hopefully we can keep you guys a little bit because we would 
like very much to be able to ask you a bunch of questions. We 
will not get to all of them.
    But let me begin with--and assuming for the sake of 
discussion I was correct about the two things you agree on, the 
two broad points. Let me make a characterization and I am going 
to be as absolutely honest and straightforward as I can. My 
objective here, by the way, in these hearings, and I hope I 
have demonstrated it so far, is I genuinely, genuinely want to 
engage in the intellectual tussle of what we should or should 
not be doing here.
    I do not pretend to have the answers. I have some points of 
view that I must tell you I have found myself rethinking as 
time goes on. I would suggest that there has been a shift--and 
this is a premise to my question--there has been a shift within 
the Congress after September 11--it did not always break down 
on party, either, I might add--about what America's role in the 
world was after the Berlin Wall came down.
    There emerged in my view--and this is a vast 
oversimplification in the interest of time, though--as we say 
in my family when you are putting forward a proposition you are 
not absolutely positive of, you say: I get a ``Get Out of Jail 
Free'' card on this one. I want a ``Get Out of Jail Free'' card 
on this. I am not trying to label anybody, but I am just trying 
to give a context in which I think--how things have changed 
from one politician's point of view.
    I recall as I was asking for your help, General Joulwan, 
and you always gave it, and as I was going down and talking to 
Sandy, and we tended to agree most of the time, and as I was 
imploring my friends like John McCain and others on the other 
side of the aisle for us to get involved in the Balkans. I felt 
very strongly that was important and for a while I was probably 
up here the only voice literally, even before Bob Dole or 
anybody else.
    It made me wonder whether or not I might be wrong. If I am 
the only one saying this, I must be wrong. As time went on, we 
found two things developed. In my party, some of the remnants 
of my generation, of the Vietnam generation, were so concerned 
about getting involved anywhere in anything that they were very 
reluctant to deal with this. On the Republican side of the 
equation, there was sort of the isolationism at the beginning 
of the century was rearing its head, that that was not our 
role, our responsibility, all we had to do was----
    So we went through a period. I can remember discussions 
with you, Sandy, where you would say to me: OK, Joe, I agree 
with you--or you were ahead of me on it. I was not suggesting 
you were following me, but we would agree. And you would say: 
But Joe, if the President does this the Congress is not going 
to come with him, and then we are really going to look foolish, 
not you the President, but the Nation.
    I remember us being pilloried by many Republicans for 
saying--thoughtful people--for saying we were violating the 
sovereignty of Serbia by moving on Kosovo. Remember that 
debate? Remember how many times we sat in your office and said: 
Look, how do we deal with this? What happens if we do not get 
the votes? We could not get the votes in the U.S. Senate or the 
House of Representatives to use air power, air power, in 
Bosnia--in Kosovo. We had been in this thing for 5 years.
    Now, the reason I give you that background is I think we 
have all sort of had an epiphany, left, right, and center, both 
parties. September 11 comes along and now we are all saying 
basically what you all three agreed in terms of the broad 
principles: We not only have to worry about going after the al-
Qaedas, we have to worry about countries like the three that 
were mentioned by the President and others that were not 
mentioned by the President--Iraq, a lot of others.
    But the thing they have in common, as you pointed out, one 
of you or all of you pointed out, was they have dictatorships, 
developing weapons of mass destruction, and they have engaged 
in terrorist activities or support of terror in the past. A 
serious problem, big deal.
    So the President enunciates, Bill, a principle. You said he 
articulated his view. With all due respect, I think what the 
President has done is--and I have been impressed with him. I 
mean this sincerely. I have only spent about 5\1/2\ hours with 
him since September 11 either alone or with one or two other of 
my colleagues and his staff in the Oval Office. I have been 
impressed with his instincts. I have been impressed with his 
instincts.
    I think this is one of those cases where a man whose 
instincts are right has enunciated a policy that has gotten out 
ahead of his troops. Let me explain what I mean by that, and I 
am going to finish this and let you all comment. One of the 
things that I hear from thoughtful Europeans--and I do not know 
how many there are these days because they are so upset--and 
from thoughtful Democrats and Republicans is not if we go to 
Iraq and take it out, but what is the President's vision for 
Iraq, what is the Iraq he is looking for? Has he articulated 
what that is, and how can he at the very moment--and I will not 
mention names, Mr. Chairman.
    You were necessarily not able to be there yesterday, but 
Senator Allen was, up in S-407 talking about the situation in 
Afghanistan. Several very senior, very pro-defense Democrats 
and Republicans were saying: We have got to get out of 
Afghanistan now, we got to get out of there, we got to get out 
of there now, you cannot stay, do not make a commitment.
    Now, that seems to me to be incredibly at odds, that 
message, with the one the President sent when he said we will 
not have any troops on the ground. I think he was dicing that a 
little bit because I think he knows we are going to have troops 
on the ground for at least 18 months or longer. But we cannot 
be part of a multinational force.
    So thoughtful people say, Bill: All right, you are going to 
go in and take down Saddam, which I am all for. Now, does any 
thoughtful person in the world think we can take down Saddam 
Hussein and walk away? I do not know a single thoughtful voice 
in the world that thinks that can be done without us staying in 
Baghdad, staying in Iraq, staying there for--I do not mean 
forever, but for at least the next several years.
    Speaking of epiphanies, Bill, I met with the Iraqi 
Liberation Force again that came to see me, Mr. Chalabi. I have 
met with him many times and he brought in representatives of 
each of the factions. They had a bit of an epiphany. You know 
what they are asking me to do? Would I encourage the 
administration to not only commit to them that they may have to 
use air power and may have to use American forces, but will 
they start to teach us now, train us. I thought they were going 
to say to fight. No. Train us how to run a country, how to run 
an oil industry, begin to train us right now and commit to us 
that they will stay in Baghdad for the foreseeable future, 
because, quite frankly, Senator Biden, we cannot do it.
    So again, the point here is how do we, as General Joulwan 
said, match our requirements with the resources and to 
reconcile previously enunciated principles with these newly 
enunciated principles that are at odds with themselves, coming 
out of the same man's voice.
    Now, the President suffers from and benefits from one 
thing. It is one of his greatest strengths and all of our 
strengths are also our weaknesses. His greatest strength is he 
is straightforward and simplistic. His greatest weakness in 
this area as he is viewed as straightforward and simplistic.
    I do not mean, to make it clear to the press that is here, 
I do not mean he is not a bright guy. But the criticism that 
people level against us now at Werkunde and everywhere else, 
Bill, is this simplistic notion. What did you hear Vedrine 
saying today, which you might expect, Vedrine in the New York 
Times saying? It is a simplistic plan, because there is no 
enunciation, and there has been none even back channel at this 
point, I have gotten confirmed by this administration, about 
what this larger vision is, how are we going to do it, how are 
we going to stay the course, are we committed, will we keep, 
General Joulwan, will we keep two, three, four, five, ten, 
20,000 Americans on the ground for the foreseeable future, 
meaning the next 1, 3, 4, 5 years, when you have a President 
saying, let us get the devil out of the Balkans, let us get the 
devil out of Afghanistan now that we routed these guys?
    So my question is this: Is there a way that you all, if we 
left you to your own devices, locked you in a room, could you 
guys come up with, do you think, because you all know one 
another, do you think you could agree on not just broad 
principles, but do you think there is a possibility that--I am 
not going to ask you what it is--a possibility you could agree 
on a way to do this that allayed the most dire fears of our 
allies in the region and in Europe and at the same time allowed 
us--nothing is without risk--allowed us a more reasonable 
prospect of doing this, ``this'' meaning getting rid of Saddam 
by whatever means, and still having the help of the rest of the 
world in what will really be the hard job and that is 
stabilizing Iraq?
    Because, Bill, I agree with you, every one of the positive 
things you said would flow, could flow and would flow if it 
were stabilized, but if it were not I think it is a raw, 
unmitigated disaster for U.S. interests.
    At any rate, that is my question.
    Senator Helms. Why do you not ask him to repeat it.
    Mr. Berger. Mr. Chairman, let me respond in several ways. 
First of all, I think all three of us are advocating active 
American engagement in the world and believe that America has 
to lead in this era. I think, however, that we should not--
there are some, I think, disagreements here. No. 1, I do not 
think that we should underestimate the continued virulence of 
al-Qaeda. There may not be controversy about it, but I think 
that Director Tenet yesterday gave us in a sense the second 
wakeup call that you ask for from the hotel receptionist.
    He said that they are still there, they are still a threat, 
they still have the capacity to reconstitute, they are 
reconstituting. We have got to keep our focus on that. It may 
not be controversial, but it is hard. To the extent that we now 
in a very active way expand this war, I do think that it 
deflects and diverts attention from something which I consider 
to be a continuing clear and present and immediate threat to 
the American people, No. 1.
    No. 2, I agree with Bill that no one wants to go back to 
the status quo ante, or at least I do not want to go back to 
the status quo ante. History marches forward here. But we 
should not underestimate the difficulties of doing Iraq, and we 
can talk about those. I think we agree that the Afghan template 
does not work particularly well in Iraq. Saddam Hussein is 
stronger, the opposition is weaker. We are talking about 
perhaps being largely by ourselves and therefore we are talking 
about large numbers of American troops.
    We have to look at whether we have the will to do that and 
it seems to me we have not prepared the groundwork, not only in 
terms of public opinion, but we have not prepared the 
groundwork in terms of getting the focus back on Saddam 
Hussein, not on Washington.
    I thought the President was very smart about a month ago 
when he said let us go back and talk about inspectors, not 
because inspectors are going to find anything, but because 
putting the focus back on inspectors puts the focus back on 
weapons of mass destruction and on Saddam Hussein. Let us go to 
the smart sanctions so we take out of his hand the martyr card. 
Let us support the opposition, but not rely too heavily on 
them. Let us operate to delegitimize Saddam.
    There is, it seems to me, both a sequence to this as well 
as a strategy here that takes account of the fact that this is 
something of great difficulty and great risk, risk to regimes 
in the area. We would like to do this, I would think, if we did 
it, with support from others. We do not have that today.
    So I guess I sum up by saying three things. No. 1, we 
should not go back to the status quo ante; America has to lead. 
No. 2, let us keep our eye on what is still a very dangerous 
ball. That does not mean that we cannot do other things in the 
world at the same time, but it means that this is not over with 
al-Qaeda. No. 3, we need a strategy with respect to Iraq, not 
simply a label.
    The Chairman. Thank you.
    General.
    General Joulwan. Senator, I guess I have been around too 
long. I remember when we got ready for Bosnia I got poked in 
the chest and said: No American ground troops in Bosnia. That 
is what I was told, but that is when I started preparing for 
American ground troops in Bosnia. I did so after the 1994 
shelling of Sarajevo and my assessment that UNPROFOR was not 
capable of carrying out its mission. In my view political 
decisions always come late and the military commander, if I can 
use an old Pennsylvania term, ``has got to have cahungoes'' 
here to really give clear military advice before sometimes our 
political masters think they need it. I did so in Bosnia. And 
we need to do so on the war on terror.
    The President's statement on the ``axis of evil'' allows 
the military leadership to come back and say to our political 
masters what are the resources required to do it.
    Mr. Chairman, we have half the Army today that we had in 
1990, half, and we are going to face in this ``axis of evil'' 
large tank threats. Half the Army, half the Navy, spare parts 
and repair parts lacking in our Air Force. Clarity here of what 
is going to be required, not that we should shy away from the 
mission, but clarity of what is going to be required, matching 
resources with requirements. We are much better off in some 
respects. We have better sealift and airlift than we did 10 
years ago. But we have to be clear in the military advice we 
give to the President and the Secretary of Defense.
    The best thing the President said in this war on terror, is 
that all options are on the table. You remember on Kosovo we 
did not say that. This President has said it. What does that 
mean? Does that mean the III Corps down in Fort Hood gets 
ready? You bet it does.
    We have to understand that you are not just going to do 
mission A, but if you need to you have another card to play. If 
the bombing does not work to get rid of al-Qaeda in 
Afghanistan, then what do you do? You have to have the clarity 
of mission. And our military leadership has to stand up and be 
counted and say we may have to put the III Corps in if it is 
going to take that to accomplish the mission. It is not over in 
Afghanistan. If we want to include Iran, Iraq and North Korea 
fine. But we need to give clear military advice. That is what 
the Constitution says and that is what we swear to uphold. 
Clarity is needed on what you want to do.
    I would urge that as we look at what has to be done next 
that the military voice be heard here, and it is very 
difficult. I remember in Bosnia, trying to get access across 
Austria, Hungary, and others--they are sovereign states--how to 
get access to ports and airfields. Our allies can help us here, 
and we have to consult not just inform. We can act 
unilaterally, but we are much stronger acting together.
    That includes Russia. I think we have a great opportunity 
with Russia. The political debate is important, but the 
military response to this is equally important, if not more 
important. I would urge that take place. We have to be very, 
very careful of what we commit to, given the resources that we 
have. If bombing and Special Forces does not work, what is 
next? We must think about that.
    The Chairman. That is right. That is the point I was trying 
to make about it is very important what the details of this 
are, very important.
    Bill, did you want to respond, and then I will yield to the 
Senator.
    Mr. Kristol. I think you commented that the President may 
be out ahead a bit of his own administration and I think of the 
political system in general, the Congress and our allies. I 
think most good Presidents at key times do get out ahead. It is 
the only way to jolt the system.
    The Chairman. I was not being critical. I was just making 
an observation.
    Mr. Kristol. And I am agreeing. I think the Secretary of 
State has done a very good job this week in his testimony of 
filling in some of the details, and obviously the State 
Department and the Defense Department are going to work now on 
precisely what you correctly say needs to be done, which is to 
go beyond the label of regime change or of confronting Saddam 
and figuring out exactly how to do what the military assets 
need to be and how quickly we can get them there and all the 
diplomatic efforts that need to be engaged in.
    On the other hand, to be fair to the President, I think he 
has been about as specific as he can be. Imagine the reaction 
among the French if the President had said: I have a very 
specific vision for Iraq, here is how we are going to arrange 
it. The INC is going to come in and control this part, we are 
going to base military forces in the north----
    The Chairman. That is not what I am talking about. But if 
he just says that we guarantee that at the end of the day there 
will be a united Iraq and America will in fact ensure that if 
need be, which means that if a Kurdistan is attempted to be 
established we will take on the Kurds, if it means that the 
Shia decide that they are going to decide they are part of Iran 
that we will see that--that is all I mean.
    Mr. Kristol. Well, I think he has made it clear that we 
prefer a united Iraq, but I would say this. Look, obviously 
this needs to be debated and there will be increasing 
specificity. On the other hand, one lesson of Afghanistan is it 
is very hard to know ahead of time exactly. The commitment has 
to be, as General Joulwan says, to be engaged and to keep your 
options on the table and to work out those options in a serious 
way.
    Planning does not mean figuring out ahead of time exactly 
how it is going to work out. I do not know a lot of people who 
knew that Mr. Karzai was going to be the person to head 
Afghanistan when we began this enterprise, but we were engaged 
in a serious way, and I think we would have to be in Iraq and I 
think we will be in Iraq.
    I agree with the implications of your statement that there 
is some leftover Republican and conservative doctrine, some 
hostility to nation-building, some hostility to peacekeeping, 
which I myself have never agreed with and I think the President 
is gradually jettisoning. He might have jettisoned it a little 
faster when approached by Mr. Karzai with the request for 
participation in the peacekeeping forces. But the truth, is we 
are engaged in Afghanistan in a major diplomatic and economic 
way and I think that is appropriate. To the degree that there 
was some sniping, some partisan sniping, at the Clinton 
administration on the peacekeeping and nation-building efforts, 
I think that is pre-September 11 and I think he has moved on 
and I think probably most Republicans have moved on from that.
    The final point I would make is just, is it better if we 
have a united Iraq than a partly disunited Iraq? Sure. Is it 
better if we can manage it incredibly smoothly than if it is a 
messy chaos? Sure. I would still say that my own judgment is 
that the disasters, as you called them, or the problems of even 
a very messy situation post-Saddam in Iraq, with potential 
decentralizing forces, with unrest in the Kurdish area, with 
unrest in Saudi Arabia, is still less, the danger of that in my 
view is still less than letting the status quo continue.
    But again, that is a debate we should have: What is the up 
side of going in and how dangerous exactly is the down side. 
But I have debated this many times and people have these 
cliches and we all use them, of course, ``the cure would be 
worse than the disease.'' I really do not think that is the 
case here. I think the current ``disease'' is sufficiently 
grave that, even if Iraq is a mess and even if the region is 
something of a mess, that I think is manageable by an engaged 
and powerful United States, and I think the disease of letting 
Saddam continue to develop weapons of mass destruction is worse 
than almost any outcome resulting from removing Saddam from 
power.
    The Chairman. Thank you.
    Senator Helms.
    Senator Helms. I missed the meeting yesterday morning 
because I had a little engagement with a doctor.
    The Chairman. I knew that. That is why I said necessarily 
absent. I did not want to mention it.
    Senator Helms. It was one of the first meetings I have ever 
missed. But I met with some of the Senators and a staff member 
who were there. There apparently was a debate about 
Afghanistan's request for military assistance, and what that 
would mean for the United States and others. And the assumption 
was that there was going to be a role for the U.S. military, 
but not the role of the United States alone.
    The President, I think has been very clear. He has said to 
me in discussions that we will play a key role in rebuilding 
Afghanistan, but we are not going to do it alone, and we cannot 
do it alone.
    But in any case, let me move on to something else. Mr. 
Berger, there have been statements in the media and political 
circles that the previous administration was presented an 
opportunity to take bin Laden into custody and the offer was 
declined. Do you feel comfortable commenting on that?
    Mr. Berger. Yes. Not true.
    Senator Helms. Not true.
    Mr. Berger. I can elaborate, but that is the short answer.
    Senator Helms. I thought that it must not be true or it 
would not have been handled in a hushed manner.
    I was a little troubled that the United States did not 
strongly protest Syria's rotation onto the United Nations 
Security Council last year. As a matter of fact, I was just 
dumbfounded, and I feel it is ironic that the United States is 
fighting terrorism and at the same time we are sitting next to 
a terrorist state at the United Nations.
    Now, the President of Syria promised the Secretary of State 
that Syria's illegal trading partnership with Iraq would end, 
notwithstanding that Syria is now the No. 1 illegal trader with 
Iraq. Now, I wish you three gentlemen would tell me how you 
think the United States ought to handle this matter involving 
the Security Council of the United Nations? Mr. Berger, maybe 
you want to go first.
    Mr. Berger. Well, as you know, Senator, the Security 
Council selects these rotating members on a regional basis and 
it is often difficult to block what country the region 
designates for the Security Council. I do not know whether this 
administration sought to block that. But in general, I think we 
have to continue to be concerned about Syria's support and 
hosting of terrorist organizations.
    I have not yet seen a great deal of evidence that the new 
President Assad is prepared to change direction fundamentally 
from his father. Although, I think there is some recognition 
there that Syria is falling farther and farther behind in the 
world and perhaps some opportunity to at least have some 
economic activities with Syria. But I think they remain a 
country that we have got to be very concerned about.
    Senator Helms. General, do you have any opinion on this?
    General Joulwan. It is really a political question, 
Senator, but all I could say is I think we need to be very 
careful with the United Nations on what they can and cannot do. 
If we are ever going to get them involved in a peacekeeping 
mission, if you want to call it that, like we saw in Bosnia and 
elsewhere, then I think the United States has to get involved 
in a leadership way to make sure they do it right.
    We have not done that, and benign neglect is not going to 
help us with the U.N. I think they need leadership. They need 
to change their organization. But I think we need to assist and 
help them do that. The U.N. has a role to play. If we do not 
help them then I think they are going to go in a different 
direction.
    What we see with Syria is a case in point. We just have to 
understand what are the limitations of the U.N. when you have 
nearly 200 nations involved, but what is it that they can do 
and what are we willing to provide the leadership for them to 
do. If we are not willing to do nation-building or 
peacekeeping, and the U.N. is going to do it then we have to 
help them develop the tools and the resolve and the 
organization to do it. I think that can be done.
    Senator Helms. Mr. Kristol.
    Mr. Kristol. I think it does suggest that one can be a good 
multilateralist and be for working with allies, friends, or 
other countries in the world and that that does not always mean 
deferring to the U.N. or choosing the United Nations as the 
instrument of multilateralism. Some of the most successful 
peacekeeping and even nation-building efforts around the world 
today are not in fact United Nations efforts, and I think that 
is maybe not an accident. The fact that Syria is on the 
Security Council suggests some of the problems with the United 
Nations, though again there are times when it is obviously 
useful to use that international body.
    In terms of Syria, I do think it is the case, and this is 
truly a bipartisan statement, that for the last 20 years 
administrations of both parties and Congresses controlled by 
both parties have put other items in our international agenda 
pretty far ahead of terrorism as weightier items to deal with, 
whether it is the Middle East peace process, whether it was 
certainly in the eighties fighting the Soviet Union, whether 
there were other issues in the nineties.
    I do think that has changed now, again on a bipartisan 
basis, after September 11 and that does I think change one's 
attitude toward a nation like Syria, should change one's 
attitude toward a nation like Syria and toward that nexus of 
terror-friendly and terror-sponsoring states in the Middle 
East. How one goes about, what order one addresses those states 
in, what the interrelationships among them are, is complicated.
    But basically I think the President's sense, and I very 
much agree with this, is that whereas in the past there have 
been fancy geopolitical arguments about going after one state 
would strengthen another one and we have to have a balance of 
power, I think in fact that going after terrorist sponsorship 
against one state in the neighborhood will teach a lesson to 
the other states in the neighborhood that the sponsorship of 
terror is generally not a good business to be in.
    I am for pushing on all fronts as much as you can, but I 
think we need to get out of the mind set that somehow we can 
create a sort of balance of power somehow among different 
terror-sponsoring states. I think that really is--well, we see 
what the consequence of that view is, I think.
    Senator Helms. Let me address another subject, Mr. 
Chairman, that bothers me. I hear so many statements indicating 
that if, as, and when we get rid of Saddam Hussein, there will 
be no one there to take over and run the country. I can 
understand why people are reluctant to take a public stand. We 
have people coming over here, and I know you have met with them 
in your previous capacity. These people are not only gifted, 
they are pleading for help in getting freedom for their 
country. Yet they have to be so careful, because the slightest 
bit of information and you will have a gun pointed in your ear 
and the trigger pulled.
    We all know the story of the member of Saddam's cabinet, 
who gassed many of his own people, the Kurds, simply because he 
did not agree with them. It is a matter of public record, at a 
cabinet meeting--I call it that, I do not know what he calls 
it--that one of Saddam's cabinet members who began to question 
him was asked to step outside to discuss the disputed issue. 
They stepped out in the hall, and he put a pistol to the guy's 
head and blew his brains out. Now, this is the kind of fellow 
who Saddam Hussein is. It is a matter of record. So, no wonder 
they are careful about when they come over here. But, there are 
plenty of fighters in Iraq who will stand up with the United 
States and Great Britain and other countries, which I am 
confident will help if, as, and when we can get rid of this 
guy.
    I see my time is up and I thank you, Mr. Chairman.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    This is a very good hearing and I want to thank you also 
for your testimony. I certainly share the concern of many of my 
colleagues that we have to act decisively to limit the access 
of terrorist organizations to weapons of mass destruction. But 
I also think, and I am trying to in my role on the committee 
emphasize that, we also have to act to address some of the less 
obvious dangers posed by what you might call weak or failed 
states around the world.
    As we know, failed states and the criminal networks within 
them can and have already provided a safe haven for terrorist 
networks. I have the pleasure of being the chairman of the 
African Affairs Subcommittee and one of the things I am doing 
is to hold a series of hearings in the subcommittee over the 
next few months to consider the manifestations and risks 
involved in these failed states. We held one yesterday that I 
felt was just very, very helpful on Somalia, which is one that 
is very much on people's minds.
    These situations include problems posed by piracy, illicit 
air transport networks, trafficking in arms and drugs and gems 
and people. Another example that I have encountered and have 
visited last year, of course, is Sierra Leone and, having read 
the accounts of what relationship those diamond fields may have 
had to the financing of al-Qaeda is another example.
    These are attributes that we find a lot in Africa, but 
these are weaknesses that are encountered in other regions as 
well. I think that we all agree that these pose a very real 
threat to our national security.
    But given your expertise, I would like each of you to 
comment on how serious you think these situations are. How 
would you compare these shadow threats to some of the more open 
threats that we have been talking about, and what steps can we 
take to begin to address these threats more consistently in 
different regions? Mr. Berger.
    Mr. Berger. Senator, I think you are absolutely right in 
drawing attention to this. We have focused, for good reason, on 
the military dimension of the war against al-Qaeda. That I will 
say again has to be in my judgment getting al-Qaeda, destroying 
it, ripping up that network. It is not done. It has to be 
finished. That has to be our overriding focus.
    But I said in my statement that there is a political 
dimension to phase two as well as a military dimension. The 
political dimension involves our diplomacy in the Middle East. 
It involves our diplomacy in South Asia, and I believe, 
Senator, that it involves not only exercising our power, but 
exercising our moral authority so that the world understands 
that our power is not only for self-protection, but also serves 
a larger purpose.
    Since this hearing began about an hour and a half ago, 500 
people have died in Africa of AIDS. That is a problem that is 
not simply a health problem, not simply a moral problem; it is 
a problem of creating failed states which will, if we did not 
even think about it as a moral and health problem but as a 
security matter, will come back. We will reap that whirlwind.
    So I think that we have to stay focused on the immediate 
terrorist threat, but we have to recognize that our engagement 
here in the world cannot only be manifest in terms of what we 
destroy, but what we build, and that we have to be deeply 
engaged in each of the problems that you have pointed out.
    Senator Feingold. Thank you very much.
    General.
    General Joulwan. Senator, beside my role as NATO Supreme 
Allied Commander, as the U.S. commander in Europe I had great 
responsibility for much of Africa and the Middle East as well 
as Europe. Let me try to respond to your question on the weak 
or failed states, particularly in Africa, in this way. One of 
the challenges I gave my staff was how to make the military 
which is the strongest organization in these countries part of 
the solution, not the problem. How to engage in, in a way, not 
nation-building, but security-building, how to engage in a way 
with our troops that provide an example for the evolution we 
want in the military of these nations.
    I did so in Latin America to a great degree when I was 
there, with I thought very good results. What we have done in 
Europe with 46 nations now in the Partnership for Peace, with 
the military to military contacts that have been--I think the 
outcome has been very good. We have seen the military establish 
the framework or the foundation on which political dialog could 
take place.
    I really think this to me, if we had the resources--and 
again it is an issue of priorities, and Africa unfortunately is 
on a lower priority than many other areas for our military--
that this military to military contact, not just training how 
to fight, but also the proper role of the military in a 
democratic political system.
    So I would say that we need to try to figure out how to 
engage across the spectrum, political, diplomatic, economic, 
and military in these countries, but to make the military part 
of the solution, not the problem.
    Senator Feingold. I appreciate that answer because it is 
something I am very concerned about with regard to the African 
countries, that it is an exciting prospect, but, just as on the 
other subjects you are discussing, it is essential that there 
is follow-through, not that we simply train or work military to 
military, but that there is accountability for human rights and 
a long-term commitment on our part to make sure that that 
training is not used in a way that would be problematic. But 
obviously your comments suggest a genuine commitment to that.
    General Joulwan. Senator, if I could just add, you may be 
interested and maybe you know, here at our National Defense 
University we have a Center for African Studies that brings 
particularly the military and other leaders back here and we 
have this interchange. We have the center, the Marshall Center 
in Garmish, that does this same thing. We have the Nimitz 
Center. We have one now for the Near East and we have another 
one for Latin America.
    This is the positive side of engagement, and many civilians 
are involved, not just the military. So I think, given your 
interest, I think that this newly established center over here 
at Fort McNair can be of great interest to you.
    Senator Feingold. Thank you, General.
    Mr. Kristol.
    Mr. Kristol. It seems that these international terrorist 
networks like al-Qaeda can find homes in two kinds of states: 
either rogue regimes, which are sometimes strong states, I 
guess you would say, but which are friendly to terror, or 
obviously in failed states, which are so weak that they cannot 
resist these organizations or cannot adequately police their 
own land. Or in the case of Afghanistan you had sort of the 
next twist on this, which is you had a failed state which then 
the terrorist organization went in and basically took over and 
created basically or supported a government there.
    So I very much agree that it is important, it is in our 
national interest. There are some places, obviously, where 
there are limits of what we can do, other places we can do 
more. It seems to me I think you are right to mention Somalia, 
in this way. It has now become conventional wisdom that pulling 
out as we did of Afghanistan so abruptly and completely, I 
guess in 1989, was a mistake and we paid a horrible price for 
that many years later.
    One really needs to look back at Somalia, too, and ask the 
same question, because obviously I think we were right to go in 
in late 1992. Maybe the mission got a little confused and 
overextended in 1993. I am not entirely convinced of that, but 
we then suffered casualties in, was it, early October 1993 and 
pulled out, not as quickly as people think in retrospect, but 
we did pull out over the next several months and there was 
bipartisan support for that, obviously.
    But we paid a huge price for that. We should not kid 
ourselves. Bin Laden personally was inspired by that, for one 
thing. Rwanda followed from that, which was really the greatest 
pure humanitarian, in numbers I think the greatest disaster of 
the nineties. And God knows in general what message people 
around the world took about America's willingness to intervene 
and to take casualties around the world.
    So I think you are absolutely right that one cannot sort of 
take a part of the world and say, well, that does not matter, 
it is not of strategic importance, we are not going to worry 
about failed states there, because it turns out in this day and 
age, even if that ever was legitimate, in this day and age 
terrorist networks can find havens in those states and they can 
attack us and our allies in different parts of the world.
    Senator Feingold. I appreciate that comment on Somalia. To 
be candid with you, I supported our getting out of there 
militarily, given the American people certainly had been not 
prepared for what came to be known as the mission creep in that 
situation. But what we were presented with rather starkly 
yesterday at our hearing was we did not just pull out 
militarily; apparently we severed almost any kind of contact 
whatsoever with any aspect of Somalia at any part of our 
government, is the way it was presented. Perhaps that is an 
exaggeration.
    But there is a distinction sometimes between the military 
role, which sometimes is needed, sometimes is not, and then a 
complete disengagement. So I think that is a helpful remark.
    Mr. Berger.
    Mr. Berger. I just remember, as I suspect Senator Biden 
probably is the only one who was at the meeting at the White 
House in October in which the President pleaded to stay in 
Somalia, and we had very little support in that room. He said: 
We cannot, because we have suffered casualties, leave. We have 
got to learn from what went wrong, but it would send a terrible 
message. There were very few folks in that room who thought we 
should not leave immediately.
    The Chairman. You are generous saying ``very few.'' You are 
generous when you say ``very few.''
    Mr. Berger. I am trying to be generous in all of my 
dealings these days.
    We had negotiated with the Congress for a 3-month phaseout, 
and I think it was a mistake. But this is not just--let us go 
back a little farther in history. In 1983, 243 marines were 
killed in the second largest terrorist attack against the 
United States, and what did we do? We did not bomb Lebanon, we 
did not bomb Syria. We withdrew.
    So I just want to broaden out here the span of time. We 
have been engaged in many episodes, but I think that we in some 
cases have been too quick to disengage.
    The Chairman. Now is not the time to go back and talk about 
who in my view. But some day the books will be written and 
people will be surprised, who were at those meetings hollering 
the loudest to get out.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    I want to thank all three of these gentlemen for their 
insight. I have taken notes through it all and there is kind of 
a thread of consistency in a mission statement here. Some of 
the particulars may differ in some of the aspects. In Mr. 
Berger's view, of course--and I think I agree with--all the 
risks that we face here, we have to differentiate between 
different nations. But also I see you agree very much with Mr. 
Kristol that in the rebuilding we have to rebuild these 
countries based on our values.
    The general's comments again echo what the President says, 
reinforces: This is going to be a long struggle, this is not 
going to be something quick. The efforts of coordinating law 
enforcement and the military, this is very important. Also, 
making sure that we recognize while we are all coming up with 
these mission statements, let us make sure that the military 
can get this job done in safety for those in uniform. I think 
some of us are admiring, as we always do, those who serve our 
country in the military, and we think that with the new 
technology, which is great and gives us a lot of advantages, 
especially in the air and also in the seas, let us remember it 
will be a different target this time and make sure we are 
prepared in it.
    Then through it all, we are talking about all these 
borders. You think of Afghanistan, and in one of the earlier 
hearings you had in this committee, Mr. Chairman, we said we 
need a modern day George Mason or a modern day James Madison, 
trying to get a confederation together in Afghanistan. That has 
been done before. When the Central European countries became 
free from the Soviets, they had to create their governments.
    All of that when you start talking about borders gets into 
a lot of military matters, because I suppose you have to say 
you want the post-Saddam Iraq to be a single country the same 
way. But you have to go back through history and wonder why do 
they have borders like this, why is Afghanistan a country, that 
not even logistically, by mountain ranges and geography and 
differences of languages and religions and all sorts of ethnic 
differences, and some of those go back to colonial days. But we 
have to be considerate, obviously, of Turkey.
    Now, when I read Bill Kristol--I read your comments before 
you expressed them, Bill, and this is an absolutely 
fantastically well-written, thoughtful, logical statement. It 
is consistent with not only our quest for security, but also 
for the expansion of the values of individual freedom. 
Countries that have individual freedom do not have these 
problems or these threats to our country. They may be 
competitors economically. We may bicker with the European 
countries, but nevertheless they are not a threat. They are 
competitors, they have a slightly different point of view, but 
that is fine, just like we have different points of view here.
    Now, as we go forward in talking about Iraq, I almost 
wonder is this really the place to do it, publicly, about here 
is what we are going to want to do and it is going to be this 
action after this action after this action. I wonder how much 
credibility that gives us when we are trying to build allies 
and they are saying, well, the United States wants to do this 
anyway, and so all of these things that we are making or 
stating are provocations for action, because the United States 
does not usually act without provocation.
    I think the President has tried to start building the case 
for provocation and why we do need to act proactively, not just 
sit back and wait until there is provocation.
    But as we go forward with Iraq, which I think the President 
laid out as well as with, not just Iraq, but Iran, Hezbollah 
and other terrorist groups and those who sponsor them, there 
are those who say that absent evidence of its involvement in 
the September 11 terrorist attacks, we cannot be taking action 
against them. Now, to me this is nothing but a red herring. The 
President made clear that the war on terrorism is not about 
revenge, it is about prevention.
    Now, I think Saddam Hussein has figured out the President 
Bush means business and he is serious and this country is 
serious and behind him, and you see that from the reflection of 
support from his speech, not just the State of the Union but 
before, and the State of the Union put a finer touch on it. I 
think Saddam is undoubtedly trying to buy time. Now he wants to 
negotiate with the United Nations.
    Now, I would like to ask all three of you gentlemen: Do we 
want to negotiate again with Saddam Hussein or do you believe, 
as a previous witness to this committee said, the former U.N. 
weapons inspector, Richard Butler, told this committee that as 
long as Saddam is in power he will seek weapons of mass 
destruction? So how do we handle this latest ploy to buy time 
by Saddam?
    Mr. Berger. Let me start, Senator. I do not think 
negotiations with Saddam are fruitful. Before Desert Fox, at 
the last minute he invited the Secretary General to Baghdad for 
negotiations. But I do think that we have to prepare the ground 
here, and let me just expand on that for 1 minute. No. 1, 
again, I will say again, I think we have to remember that we 
have to tear up this al-Qaeda network and we cannot in my 
judgment do things at this point that divert and deflect us 
from that principal goal.
    That said, it seems to me there are a number of steps here 
with respect to Iraq. No. 1, put the focus back on Saddam 
Hussein, not on Washington. I think the President was smart to 
talk about inspectors and weapons of mass destruction, not 
because I think that Saddam Hussein will allow inspectors back 
in, but because it raises the question in the minds of the 
world, what is he hiding.
    No. 2, I think we ought to revise the sanctions, as 
Secretary Powell has suggested so that they are tighter and 
that he does not have the martyr card to play.
    No. 3, I think we need to work with the external 
opposition, such as the INC, and strengthen it, but I do not 
think we should have an illusion that they are a panacea or 
that they are the Northern Alliance, because they are not. This 
is going to take, if we do this, it is going to take largely 
American men and women.
    I think that we ought to continue to delegitimize Saddam. I 
think that there is no reason why he should be recognized as 
the voice of Iraq. There was an ``indict Saddam'' campaign. I 
am not sure exactly where it stands. But I think again we need 
to try, in my judgment, to build acceptance from most nations 
in the world and support from some and prepare the ground. 
There is a covert action piece of this. Saddam is capable of 
making mistakes, as he did when he was under pressure in 1991, 
and I think we have to prepare the ground here. We have to have 
a strategy. We have to take account of the potential 
consequences--Scud missiles that are launched, what the impact 
of this is on Turkey, what the impact of this is on Pakistan 
and other countries in the region.
    So I think the objective in my judgment is there, but I do 
not see this, I suppose, on the same timetable necessarily as 
perhaps my friend Mr. Kristol does.
    Senator Allen. General.
    General Joulwan. Senator, I think as we look at Iraq and 
Saddam Hussein, I do not think we want to negotiate either. But 
I would look at it from a little different angle since I was 
responsible for Northern Watch, which was northern Iraq, during 
my time in Europe. I think we have to say what has he learned 
in the last 10 years about us? He has an integrated air 
defense. I understand that the assessment may be he is not as 
strong. I think we need a good analysis there. What lessons did 
he learn from the gulf war, that he waited? What may he do now?
    I think we need to look at all of that and I think we have 
to understand that we may not want to negotiate with him. I 
think we have to build the case, as has been mentioned, against 
him and also try to build a coalition to try to help us. Bases 
in Turkey are critical for this and I think Turkey needs to be 
part of that solution. Access to ports, very important.
    We need to give clarity to our military that has been 
mentioned here several times. What are our goals? Do we think 
we can do it with air and Special Forces again? Perhaps, but 
the clarity I want here is, if that does not work, what other 
cards do you have in your hand to play, and we need to 
understand that. Do we occupy it? Do we occupy, as the chairman 
mentioned, Baghdad? What does all that mean? We need to have 
that debate and that clarity beforehand.
    I would recommend that we use all tools in the toolkit--
economic, political, diplomatic, as well as military--in this 
fight. I think all of those can be used very effectively and 
blended into a coherent strategy. The important thing here is 
keep the American people behind us by providing this 
information on exactly what it is we want to do. There will be 
covert operations, but I think much of it can be made public in 
building this solid case for what we need to do next.
    Mr. Kristol. Governor Allen, Senator Allen--I guess I still 
think of you as Governor Allen, as a citizen of Virginia. I 
think there is bipartisan agreement on not negotiating with 
Saddam. The question, as a practical matter, will be: do we 
feel we need to give him an ultimatum or use the U.N. Security 
Council, and presumably the 6-month rollover of the sanctions 
as an occasion, to give him an ultimatum for letting inspectors 
back in? Do we do that through the Security Council or do we 
simply do that with a few allies or unilaterally?
    I think the danger of negotiations is not that any American 
President or representative is going to negotiate with Saddam, 
it is that we end up negotiating with our allies and with the 
United Nations and that Saddam uses whatever splits there are 
on the kinds of inspections that are appropriate and we end up 
with a diplomatic mess of the sort that the Clinton 
administration unfortunately had to deal with an awful lot, and 
we could end up in the attempt to sort of be nicer to and more 
considerate of other nations and the United Nations, could end 
up producing more mess actually than a more straightforward, I 
think, United States ultimatum of some sort or other.
    The truth is from a real military point of view, of course, 
there is a case for preemption and for not giving a whole lot 
of notice to Saddam about when we are coming and how and when, 
though getting so many troops in the area is going to make it 
not a true preemption and not a true surprise. Still, I would 
not want to--I do not think it would be appropriate--I would be 
wary of doing what we did in the gulf war, which was a real in 
effect telling him when we were coming. That is very dangerous. 
Saddam has had a lot of time to plan for this and one thing any 
prudent war-planner and the President obviously will have to 
think through is all the things he could do over the next 
months to cause death and destruction and chaos in the area. 
Obviously, I am sure the President is discussing this today and 
there are a lot of military and diplomatic and covert things 
that will have to be done.
    I do think we need to have a public debate, within the 
appropriate limits of what can be made public, about all this. 
I would say this that I think the President by, as the chairman 
said, getting out a little ahead of perhaps his own 
administration and the political debate in general, has now 
forced this debate in a healthy way. My own personal view, for 
example, is that, though some of my ``allies,'' if I can call 
them that, who are hawkish on Saddam think it can be an 
Afghanistan model, Special Forces and air power, I myself am a 
little dubious about that and think you would at least as a 
precaution have to be ready to go with serious ground troops.
    You hear numbers like 200,000, presumably out of Kuwait and 
Turkey in particular. That is the kind of thing that needs to 
be hashed out within the Pentagon and the State Department, 
above all in the NSC, but also to some degree in public. If the 
President is going to send 200,000 troops over there, I assume 
that at some point the Congress will have to----
    The Chairman. A lot of Presidents do not assume that, 
Democrat and Republican.
    Mr. Kristol. Well, I think that the President will have to 
come to Congress and get authorization to go ahead. That would 
be a good thing. I was for that in the gulf war when I was in 
the first Bush White House and there were others who were 
against coming to Congress at all. I think it will be important 
to have the country behind this effort.
    So I do believe we could do it at the same time as we are 
prosecuting the rest of the war against al-Qaeda. I take Sandy 
Berger's point that--you know, I have been in government, too--
you tend to lose focus. You cannot do too many things at once. 
On the other hand, I do think it would be a mistake to--I am 
not saying this is Sandy Berger's view, but it would be a 
mistake to think that you have to wait until you have mopped up 
every al-Qaeda cell around the world or that there are not 600 
Special Forces troops deployed somewhere in the Philippines, 
Indonesia or Somalia before you could begin serious military 
preparations for Iraq.
    If time really is not on our side, I think Iraq is a matter 
of months, let me put it that way, rather than years.
    Mr. Berger. Senator, can I add just one thing very quickly?
    Senator Allen. Sure.
    Mr. Berger. I think that we have to be very clear about the 
costs and consequences of doing this largely by ourselves. What 
worries me a bit is that we have gone from what a friend of 
mine described as a posture of ``together if possible, alone if 
necessary as a country'' to ``alone if possible, together if 
necessary.''
    We proceed with a quarter of a million soldiers marching 
into Baghdad by ourselves or largely by ourselves at a very 
heavy price. I think that there is an awful lot of careful 
thought, discussion, debate that needs to go into a decision of 
that kind of magnitude.
    The Chairman. Gentlemen, the time is not on our side. There 
is no more time left on the vote. But go ahead.
    Senator Allen. Thank you all for your comments. I do think 
the President in his State of the Union laid out this mission 
statement, and obviously one gives a State of the Union and it 
is not dispositive of the issue. But it is the road map and the 
principles and the theory and reasons where we are going to be 
going forward.
    I do think the Bush administration does want to work 
together with others. I do not think they want to go on their 
own. There is a practical reason for that as well, and that is 
the debate on the nation-building and after the war has been 
won what is going to be done, and how long are the U.S. troops 
going to be staying in Afghanistan. There are certain things 
the United States is preeminent on and that is air power, sea 
power, military strength. As far as the nation-building and 
having folks in there, keeping the combatants or factions 
together, whether it is in Bosnia or whether it is in 
Afghanistan, other countries, European countries, Japan and 
others, are capable of doing that, and to have that support 
long-term for the legitimacy of whatever government follows, it 
is important I think to have other nations saying, this is a 
just cause, a reasonable cause, this affects us, and we want to 
be helpful. Then you get the logistics aspects as far as the 
bases and airfields as well.
    General Joulwan. One caution. You mention that an Iraq 
option would require 200,000 to 250,000 troops. We have 10 
divisions in the Army. That is the total. Probably we could 
free about 150,000, at the max about 180,000. Thus you are 
going to use every division in the Army for an Iraq option--and 
that means the troops now in Afghanistan. Remember we have half 
the force we had in 1990.
    So I think we have to be clear here on what it is going to 
take. That is what I meant earlier about clear military advice.
    The Chairman. And we ain't even mentioned Korea yet.
    General Joulwan. Right.
    The Chairman. We have not even mentioned Korea.
    General Joulwan. For 250,000 troops in an Iraq option means 
we take them out of Korea.
    The Chairman. Look, gentlemen, I really appreciate your 
testimony. I wish we had more time. As you all three know, I am 
going to take advantage of your advice as we go forward here. 
But you know that old expression, big nations cannot bluff, and 
I promise you--I have only been doing this 30 years and you 
guys have been doing it in different ways than I have been 
doing it, but the whole world is watching to see whether we 
finish the job in Afghanistan and what kind of commitment we 
are really willing to make. They will judge what we are likely 
to be willing to do other places based on how well we finish 
this one.
    I thank you all. It was great testimony. I hope you do not 
mind if we do publish it to our colleagues, and I would ask you 
each individually to be willing to maybe, even in an informal 
setting, get together with some of my Democrat and Republican 
colleagues in an office and really hash some of this stuff out.
    I was not talking about laying out operational plans for 
going into Iraq. I was talking about the broader principles of 
what is our vision of what the region should look like at the 
end of the day, and that is a pretty important point I think.
    Anyway, thank you all very, very much. We are adjourned.
    [Whereupon, at 12:55 p.m., the committee was adjourned.]

                                   - 

</pre></body></html>
